TABLE OF CONTENTS - APPENDIX

District Court Order Granting Motion to Dismiss .................................. Appendix-1
Ninth Circuit Panel Opinion................................................................... Appendix-14
Ninth Circuit Order Denying Rehearing and Related Dissents ........... Appendix-43

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 1 of 13

1

HONORABLE RICHARD A. JONES

2
3
4
5
6
7

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10

DUY T. MAI,

11

CASE NO. C17-0561 RAJ

Plaintiff,

12
13
14

ORDER

v.
UNITED STATES OF AMERICA, et al.,
Defendants.

15
16
17

I.

INTRODUCTION

18

This matter comes before the Court on Defendants’ Motion to Dismiss. Dkt. # 4.

19 Plaintiff Duy T. Mai opposes the Motion. Dkt. # 6. For the reasons that follow, the
20 Court GRANTS Defendants’ Motion.
21

II.

BACKGROUND

22

The following is taken from Plaintiff’s Complaint, which is assumed to be true for

23 the purposes of this motion to dismiss. Sanders v. Brown, 504 F.3d 903, 910 (9th Cir.
24 2007).
25

Plaintiff brings this action against Defendants United States of America; the

26 Department of Justice (“DOJ”); the Bureau of Alcohol, Tobacco, Firearms, and
27 Explosives (“ATF”); the Federal Bureau of Investigation (“FBI”); Jefferson B. Sessions

ORDER - 1

Appendix - 001

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 2 of 13

1 III, as Attorney General; Andrew McCabe, as Acting Director of the FBI; and Thomas E.
2 Brandon, as Acting Director of the ATF, for alleged violations of his Second and Fifth
3 Amendment rights. Dkt. # 1 ¶¶ 1.1-1.8, 4.1, 4.2.
4

In October of 1999, when Plaintiff was seventeen (17) years old, he was

5 involuntarily committed for mental health treatment by the King County Superior Court.
6 Plaintiff’s commitment expired by August 8, 20001, and he has not been committed since.
7 Id. ¶ 3.1. In 2001, Plaintiff enrolled in Evergreen Community College where he
8 completed his GED and earned college credit that enabled him to transfer to the
9 University of Washington. Id. ¶ 3.3. Plaintiff graduated from the University of
10 Washington with a bachelor’s of science degree in microbiology. After graduating,
11 Plaintiff enrolled in a master’s program at the University of Southern California. Id. He
12 graduated with a master’s degree in microbiology in 2009. Plaintiff then began working
13 at Benaroya Research Institute. As part of his job, he successfully passed an FBI
14 background check. Id. ¶ 3.4. In October of 2016, Plaintiff began working for Fred
15 Hutchinson Cancer Research Center as an immune monitoring specialist and is currently
16 employed there. Id. ¶ 3.6.
17

In 2014, Plaintiff petitioned the King County Superior Court under Washington

18 statute RCW 9.41.047 for restoration of his firearm rights. Plaintiff supplied the court
19 with medical and psychological examinations and supportive declarations. His petition
20 was granted.

Id. ¶ 3.9. Plaintiff then attempted to purchase a firearm and received a

21 denial from the National Instant Criminal Background Check System (“NICS”). NICS
22 informed him that the denial was based on 18 U.S.C. § 922(g)(4). Id. ¶ 3.10. Plaintiff
23 subsequently received a phone call from the ATF, notifying him that the ATF legal
24
25
26
1

Plaintiff does not provide further explanation as to what this “expiration” entails.

27 Therefore, the Court presumes that Plaintiff was released from his commitment on that date.

ORDER - 2

Appendix - 002

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 3 of 13

1 department determined that his state restoration order was not sufficient to overcome the
2 federal prohibition in 18 U.S.C. § 922(g)(4). Id. ¶ 3.11.
3

On April 11, 2017, Plaintiff filed a complaint alleging that Defendants violated his

4 Second Amendment and Fifth Amendment rights by denying him the ability to “keep,
5 bear and purchase” firearms. Id. ¶¶ 4.1, 4.2.
6

III.

7

A. FRCP 12(b)(6)

8

Fed. R. Civ. P. 12(b)(6) permits a court to dismiss a complaint for failure to state a

LEGAL STANDARD

9 claim. The rule requires the court to assume the truth of the complaint’s factual
10 allegations and credit all reasonable inferences arising from those allegations. Sanders v.
11 Brown, 504 F.3d 903, 910 (9th Cir. 2007). A court “need not accept as true conclusory
12 allegations that are contradicted by documents referred to in the complaint.” Manzarek v.
13 St. Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1031 (9th Cir. 2008). The plaintiff must
14 point to factual allegations that “state a claim to relief that is plausible on its face.” Bell
15 Atl. Corp. v. Twombly, 550 U.S. 544, 568 (2007). If the plaintiff succeeds, the complaint
16 avoids dismissal if there is “any set of facts consistent with the allegations in the
17 complaint” that would entitle the plaintiff to relief. Id. at 563; Ashcroft v. Iqbal, 556 U.S.
18 662, 679 (2009).
19

A court typically cannot consider evidence beyond the four corners of the

20 complaint, although it may rely on a document to which the complaint refers if the
21 document is central to the party’s claims and its authenticity is not in question. Marder v.
22 Lopez, 450 F.3d 445, 448 (9th Cir. 2006). A court may also consider evidence subject to
23 judicial notice. United States v. Ritchie, 342 F.3d 903, 908 (9th Cir. 2003).
24

IV.

25

A. Federal Statutory and Regulatory Background

26

Under 18 U.S.C. § 922(g)(4), it is unlawful for any person “who has been

DISCUSSION

27 adjudicated as a mental defective or who has been committed to a mental institution” to

ORDER - 3

Appendix - 003

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 4 of 13

1 purchase a firearm. 18 U.S.C. § 922(g)(4); 17 C.F.R. § 478.11. 18 U.S.C. § 925(c)
2 provides for a “relief-from-disability” program to be administered through the Attorney
3 General. This program was defunded in 1992. Dkt. # 1. ¶ 3.12. In 2008, Congress
4 passed the NICS Improvements Amendments Act (“NIAA”). Pub. L. No. 110-180,
5 122 Stat. 2559. The NIAA authorizes federal grants to states to assist them in
6 determining which individuals are eligible to purchase and possess firearms and to aid
7 them in supplying accurate information to federal databases. Id. To be eligible for these
8 grants, a state must certify to the Attorney General that it has implemented a relief-from9 disabilities program under which an individual who, pursuant to state law, has been
10 adjudicated “mentally defective” or has been “committed to a mental institution” may
11 apply for “relief from the disabilities imposed” by 18 U.S.C. § 922(g)(4). Pub. L. No.
12 110-180, §§ 103-105, 121 Stat. 2559, 2568-69 (2008).
13

A qualifying state program shall grant relief if “the circumstances regarding the

14 disabilities . . . and the person’s record and reputation, are such that the person will not be
15 likely to act in a manner dangerous to public safety and that the granting of the relief
16 would not be contrary to the public interest.” Id. The NIAA requires that a state court or
17 other lawful authority reviewing a petition for relief from a firearms disability imposed
18 by 18 U.S.C. § 922(g)(4) consider three factors when determining whether to grant or
19 deny the requested relief: (1) the circumstances regarding the firearms disability imposed
20 by 18 U.S.C. § 922(g)(4); (2) the petitioner’s “record”; and (3) the petitioner’s
21 “reputation”. Id. § 105(a)(2). The NIAA also requires that when a state court or other
22 lawful authority grants a petitioner relief from a firearms disability, the court must find
23 that the petitioner “will not be likely to act in a manner dangerous to public safety,” and
24 that “the granting of the relief would not be contrary to the public interest.”
25 Id. § 105(a)(2).
26

Washington State’s restoration statute pre-dates the NIAA. RCW 9.41.047. This

27 statute does not comply with the NIAA because the provisions for restoration of rights

ORDER - 4

Appendix - 004

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 5 of 13

1 after involuntary commitment do not meet the requirements of the federal statute.
2 Dkt. # 4 at 5. Plaintiff argues that because he is unable to obtain restoration of his right
3 to possess firearms through the state of Washington’s program, he has no relief available
4 to him and he is subject to a lifetime prohibition on firearm possession in violation of his
5 Second and Fifth Amendment rights.
6

B. Second Amendment Claim

7

a. Conduct Protected by the Second Amendment

8

The Second Amendment confers “an individual right to keep and bear arms.”

9 District of Columbia v. Heller, 554 U.S. 570, 575 (2008). In Heller, the Supreme Court
10 considered whether the District of Columbia’s regulations barring the possession of
11 handguns both inside and outside the home, and requiring that other firearms be kept
12 “unloaded and disassembled or bound by a trigger lock or similar device,” violated the
13 plaintiff’s Second Amendment Rights. Id. at 628-29. After undergoing a historical
14 analysis of the original meaning of the amendment, the Supreme Court concluded that the
15 right of self-defense was central to the Second Amendment right to keep and bear arms
16 and found that prohibiting the possession of handguns was unconstitutional. Id. The
17 Supreme Court also found that the District of Columbia’s requirement that other firearms
18 in the home be “rendered and kept inoperable at all times” made it impossible for citizens
19 to use firearms for self-defense, and thus, was also unconstitutional. Id. at 630. In
20 undertaking its analysis regarding the impact of the District of Columbia’s regulations on
21 the plaintiff’s Second Amendment rights, the Supreme Court noted that “the right secured
22 by the Second Amendment is not unlimited,” and that “nothing in our opinion should be
23 taken to cast doubt on longstanding prohibitions on the possession of firearms by felons
24 and the mentally ill . . . .” Id. at 626-27. In a footnote, the Heller Court referred to these
25 “longstanding prohibitions” as “presumptively lawful regulatory measures.” Id. at 626
26 n.26.
27

ORDER - 5

Appendix - 005

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 6 of 13

1

The Ninth Circuit has interpreted the Heller decision to suggest a two-step inquiry

2 for addressing Second Amendment challenges to regulations. Jackson v. City & Cty. of
3 S.F., 746 F.3d 953, 960 (9th Cir. 2014). This two-step inquiry, “(1) asks whether the
4 challenged law burdens conduct protected by the Second Amendment” based on a
5 historical understanding of the scope of the Second Amendment, “and (2) if so, directs
6 courts to apply an appropriate level of scrutiny.” Id. (citing United States v. Chovan, 735
7 F.3d 1127, 1136 (9th Cir. 2013)). “To determine whether a challenged law falls outside
8 the historical scope of the Second Amendment, we ask whether the regulation is one of
9 the ‘presumptively lawful regulatory measures’ identified in Heller, or whether the record
10 includes persuasive historical evidence establishing that the regulation at issue imposes
11 prohibitions that fall outside the historical scope of the Second Amendment.” Id.
12 (quoting Heller, 554 U.S. at 627 n. 26); see also Chovan, 735 F.3d at 1137. 18 U.S.C. §
13 922(g)(4), which is a prohibition on the possession of firearms by the mentally ill, is a
14 “presumptively lawful regulatory measure.” Thus, analysis of the constitutionality of the
15 regulation need not proceed to the second step of the inquiry.
16

Plaintiff argues that the language in Heller only established a presumption that

17 such bans are lawful, and as such, it left open the possibility of an as-applied
18 constitutional challenge to 18 U.S.C. § 922(g)(4). Specifically, Plaintiff argues that the
19 statute is unconstitutional as applied to him because he has had no mental health issues
20 since he was involuntarily committed at the age of 17. Plaintiff further argues that an
21 involuntary commitment does not equate to mental illness such that it provides a basis for
22 a permanent limitation on his right to bear arms. The Ninth Circuit has yet to rule on a
23 Second Amendment challenge to 18 U.S.C. § 922(g)(4) in a published opinion, but it has
24 rejected as-applied challenges to 18 U.S.C. § 922(g)(1), which prohibits felons from
25 possessing firearms, also one of the enumerated “presumptively legal regulatory
26 measures” in Heller. Heller, 554 U.S at 626-27. While the historical reasons for
27 prohibiting felons from possessing firearms differ slightly from those relevant to the

ORDER - 6

Appendix - 006

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 7 of 13

1 mentally ill, these cases provide insight as to how the Ninth Circuit views the regulatory
2 measures listed as “presumptively lawful” with regards to as-applied challenges.
3

In United States v. Vongxay, 594 F.3d 1111 (9th Cir. 2010), the Ninth Circuit

4 expressly rejected the defendant’s argument that the “presumptively legal” language in
5 Heller was not binding, stating that the language was “integral” to the holding. Id. at
6 1115. Citing the Supreme Court’s commentary regarding the longstanding prohibitions
7 on the possession of firearms, the court specifically stated that felons, by virtue of being
8 included among those that have long been prohibited from possessing firearms, are
9 “categorically different from the individuals who have a fundamental right to bear arms.”
10 Id. The court then rejected the defendant’s as-applied challenge to the statute based on
11 Heller and its holding in United States v. Younger, 398 F.3d 1179 (9th Cir. 2005)2.
12 Id. at 1116 (stating that its holding is “buttressed by the fact that Younger upheld the very
13 type of gun possession restriction that the Supreme Court deemed ‘presumptively
14 lawful’”). Referring to its decision in Younger, the court also noted that it declined to
15 make a distinction between violent and non-violent felons and held that section
16 922(g)(1), which prohibits all felons from possessing firearms, was constitutional. Id.
17 The holding in Vongxay continued to be upheld in several decisions involving as-applied
18 challenges to section 922(g)(1), including the decision in United States v. Phillips, 827
19 F.3d 1171 (9th Cir. 2016). In Phillips, the Ninth Circuit rejected the defendant’s
20 argument that his conviction for a non-violent felony could not constitutionally serve as a
21 basis for depriving him of his right to possess a firearm, noting that it was “hard pressed”
22
23
2

The circuit court noted that it held that 18 U.S.C. § 922(g)(1) does not violate the

24 Second Amendment rights of a convicted felon in its decision in United States v. Younger, 398
25 F.3d 1179 (9th Cir. 2005). However, the holding upon which Younger was based was partially
invalidated by the decision in Heller. Citing to In re Osborne, 76 F.3d 306 (9th Cir. 1996), the

26 court concluded that, because only a court en banc has the authority to overrule a decision of a
previous panel, and the doctrine of stare decisis concerns the holdings of previous cases, not the

27 rationales, Younger still controls. Vongxay, 594 F.3d at 1116.

ORDER - 7

Appendix - 007

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 8 of 13

1 to conclude that a felony “cannot serve as the basis of a felon firearm ban, simply
2 because its actus reus may appear innocuous.” Phillips, 827 F. 3d at 1176; see also
3 United States v. Chovan, 735 F.3d 1127, (9th Cir. 2013); Van Der Hule v. Holder, 759
4 F.3d 1043, 1050–51 (9th Cir. 2014).
5

Further, the Ninth Circuit has ruled on a Second Amendment challenge to

6 18 U.S.C. § 922(g)(4) in one unpublished opinion. While the decision is not
7 precedential, it is instructive regarding this circuit’s approach to as-applied challenges to
8 the statute. In Petramala v. U.S. Dep’t of Justice, the Ninth Circuit affirmed a district
9 court’s finding that the language in Heller was appropriate as applied to restrict the
10 plaintiff’s right to possess firearms. See Petramala v. U.S. Dep’t of Justice, 481 F. App’x
11 395, 396 (9th Cir. 2012); see also Petramala v. U.S. Dep’t of Justice, No. CV 10-200212 PHX-FJM, 2011 WL 3880826, at *2 (D. Ariz. Sept. 2, 2011), aff’d, 481 F. App’x 395
13 (9th Cir. 2012). The plaintiff argued that section 922(g)(4) unconstitutionally deprived
14 him of his right to possess firearms because he was not a danger to himself or others and
15 should not be classified as mentally defective. Id. Citing to the “longstanding
16 prohibition” language in Heller, the Ninth Circuit found that the district court properly
17 dismissed the plaintiff’s Second Amendment claim because his status as mentally
18 defective, as defined by 18 U.S.C. § 922(g)(4) and 27 C.F.R. § 478.11, allowed for
19 constitutionally permissible limits on his right to bear arms. Id.
20

Case law clearly indicates that the Ninth Circuit does not, as Plaintiff argues,

21 consider the language in Heller as merely “precautionary”. Dkt. # 6 at 6. Ninth Circuit
22 case law also indicates that Plaintiff’s arguments that section 922(g)(4) are
23 unconstitutional as applied to him also do not pass muster. Like the plaintiffs in Phillips
24 and Petramala, the crux of Plaintiff’s argument is that section 922(g)(4)
25 unconstitutionally deprives him of his right to keep and bear arms because he no longer
26 suffers from his “condition” and is presumably not a danger to the public. When
27 considering arguments regarding as-applied challenges to prohibitions included in Heller

ORDER - 8

Appendix - 008

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 9 of 13

1 as “presumptively legal”, the Ninth Circuit has consistently rejected arguments that the
2 constitutionality of a prohibition on possession turns on whether there is evidence that the
3 specific plaintiff is violent or non-violent. Thus, Plaintiff’s argument that the Court
4 should find that his involuntary commitment and alleged past mental health issues do not
5 provide a constitutional basis for a prohibition on his right to bear arms is unpersuasive.
6

Plaintiff also fails to plead sufficient facts to distinguish himself from those

7 historically barred from Second Amendment protections: the mentally ill. Plaintiff does
8 not dispute that he meets the definition of someone “committed to a mental institution”
9 under 18 U.S.C. § 922(g)(4). The term “committed to a mental institution” in 18 U.S.C.
10 § 922(g)(4) is defined by regulation as:
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

A formal commitment of a person to a mental institution by a court, board,
commission, or other lawful authority. The term includes a commitment to
a mental institution involuntarily. The term includes commitment for
mental defectiveness or mental illness. It also includes commitments for
other reasons, such as for drug use.
17 C.F.R. § 478.11. While Plaintiff provides very few details regarding his
commitment for mental health treatment, he does allege that he was involuntarily
committed by the King County Superior Court in October of 1999. Dkt. # 1 ¶ 3.1. While
Plaintiff does not specifically allege that he had a mental illness, he alleges that he had a
“condition” that led to the involuntary commitment, and that he at some point used
medication to control his condition. Id. ¶¶ 3.1, 3.8. Plaintiff does not provide the exact
date in October that he was committed, but he alleges that his commitment expired by
August 8, 2000. Thus, based on the facts alleged, Plaintiff was presumably committed
for close to a year. Although Plaintiff contends that he no longer has a “condition”, he
fails to allege facts sufficient to support that contention. In making that contention,
Plaintiff assumes that living a “socially-responsible, well-balanced, and accomplished
life” is an indication that he does not suffer from a mental illness or mental defect. That

27

ORDER - 9

Appendix - 009

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 10 of 13

1 assumption is a gross generalization that mischaracterizes what it means to live with a
2 mental illness and implies that the mentally ill cannot have a productive and fulfilling
3 life. Id. ¶¶ 3.3, 3.8. Plaintiff also alleges that he submitted medical and psychological
4 examinations to the King County Superior Court when he petitioned for restoration of his
5 firearm rights under RCW 9.41.047 and that the court granted his petition. Id. ¶ 3.9.
6 Again, Plaintiff fails to allege facts showing how the court’s grant of his petition
7 distinguishes him from the mentally ill. Washington State’s restoration statute,
8 RCW 9.41.047, requires a finding that the applicant “no longer presents a substantial
9 danger to himself or herself, or the public,” not a finding that the petitioner no longer
10 suffers from the condition related to the commitment. Therefore, Plaintiff fails to state a
11 claim that 18 U.S.C. § 922(g)(4) violates the Second Amendment as it applies to him.
12
13

b. Appropriate Level of Scrutiny
Even if Plaintiff could show that challenged law burdens conduct protected by the

14 Second Amendment, Plaintiff’s claim fails under the second step of the two-pronged
15 analysis established by the Ninth Circuit. “The level of scrutiny in the Second
16 Amendment context should depend on the nature of the conduct being regulated and the
17 degree to which the challenged law burdens the right.” Chovan, 735 F.3d at 1138. The
18 parties agree that the appropriate level of scrutiny for a regulation when Second
19 Amendment rights are at issue is intermediate scrutiny. To pass intermediate scrutiny,
20 Defendants must show: “(1) the government’s stated objective to be significant,
21 substantial, or important; and (2) a reasonable fit between the challenged regulation and
22 the asserted objective.” Id. at 1139. Plaintiff concedes that regulation of firearm
23 possession is a significant interest. However, Plaintiff argues that 18 U.S.C. § 922(g)(4)
24 does not pass the second element of the intermediate scrutiny standard.
25

According to both case law and the legislative history of the statute at issue, the

26 asserted objective of regulation of firearm possession includes preventing firearm
27 violence to promote public safety as well as suicide prevention. S. Rep. No. 89-1966

ORDER - 10

Appendix - 010

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 11 of 13

1 at 1; 114 Cong. Rec. 13,219 (statement of Sen. Tydings); 114 Cong. Rec. 21,829
2 (statement of Rep. Bingham). The Supreme Court has recognized that the Government’s
3 interest in suicide prevention is “unquestionably important and legitimate”. Washington
4 v. Glucksberg, 521 U.S. 702, 735 (1997). Thus, in analyzing the “fit” between section
5 922(g)(4) and regulation of firearm possession, the issue for this Court to analyze, is
6 whether prohibiting those who have been committed to a mental institution from bearing
7 arms is substantially related to these stated objectives. Defendants provide ample
8 evidence to support this connection.
9

First, Defendants argue that Congress relied on a history of involuntary

10 commitment or adjudicated mental illness as the basis for preventative firearm
11 prohibition when it enacted section 922(g)(4). See 114 Cong. Rec. 14,773 (1968) (Sen.
12 Long) (stating that mentally ill individuals, “by their actions, have demonstrated that they
13 are dangerous, or that they may become dangerous”).
14

Second, Defendants provide reference to numerous studies that indicate that those

15 with a history of mental illness bear a significant additional risk of gun violence than
16 those in the general population, both against others as well as against themselves. See
17 e.g. Seena Fazel & Martin Grann, The Population Impact of Severe Mental Illness on
18 Violent Crime, 163 Am. J. Psychiatry 1397, 1401 (Aug. 2006); Joseph R. Simpson, Bad
19 Risk? An Overview of Laws Prohibiting Possession of Firearms by Individuals With a
20 History of Treatment for Mental Illness, 35 J. Am. Acad. Psychiatric Law 330, 338
21 (2007); Richard A. Friedman, Violence and Mental Illness – How Strong Is the Link?,
22 355 New Eng. J. Med. 2064, 2065 (Nov. 2006); Richard Van Dorn et al., Mental
23 Disorder and Violence: Is There a Relationship Beyond Substance Use?, 47 Soc.
24 Psychiatry & Psychiatric Epidemiology 487 (Mar. 2012); Bryan L. Tanney, Psychiatric
25 Diagnoses and Suicidal Acts, in Ronald W. Maris et al., Comprehensive Textbook of
26
27

ORDER - 11

Appendix - 011

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 12 of 13

1 Suicidology 339 (2000); Matthew Miller & David Hemenway, Guns and Suicide in the
2 United States, 359 New English J. Med. 989, 989-90 (Sept. 2008).
3

To pass the substantial relationship inquiry, Defendants need only show that the

4 “fit” between the asserted interest and the challenged law is reasonable, and that the
5 regulation at issue is substantially related to the Government’s interest in promoting
6 public safety and preventing suicide. See Chovan, 735 F.3d at 1142; see also United
7 States v. Chapman, 666 F.3d 220, 231 (4th Cir. 2012). Defendants have more than
8 satisfied this element of the analysis.3 Plaintiff fails to show that 18 U.S.C. § 922(g)(4)
9 does not pass constitutional muster under intermediate scrutiny. Therefore, Defendants’
10 motion to dismiss Plaintiff’s Second Amendment claim is GRANTED.
11

C. Fifth Amendment Claim

12

Defendants argue that Plaintiff fails to state a claim for violation of his due process

13 rights because he does not allege any defect in his involuntary commitment proceeding.
14 Defendants further argue that if Plaintiff is claiming that the statute at issue, and not the
15 process under which he was deprived of his rights, deprived him of his right to bear and
16 keep arms without due process, such claims should be analyzed under the Second
17 Amendment. “[T]he right to keep and to bear arms for self-defense . . . is more
18 appropriately analyzed under the Second Amendment.” Nordyke v. King, 644 F.3d 776,
19 794 (9th Cir. 2011), on reh'g en banc, 681 F.3d 1041 (9th Cir. 2012); see also Albright v.
20 Oliver, 510 U.S. 266, 273, 114 S.Ct. 807, 127 L.Ed.2d 114 (1994) (“Where a particular
21 Amendment provides an explicit textual source of constitutional protection against a
22 particular sort of government behavior, that Amendment, not the more generalized notion
23
24

3

Although Plaintiff makes an as-applied challenge to section 922(g)(4), he makes no
argument
as to whether the application of the statute to him is substantially related to the
25
Government’s stated interest. In the absence of any evidence that someone with Plaintiff’s
26 condition or in similar circumstances does not bear an additional risk of gun violence or suicide,
the Court concludes that the application of section 922(g)(4) to Plaintiff is substantially related to
27 the Government’s interest. See Chovan, 735 F.3d at 1142.

ORDER - 12

Appendix - 012

Case 2:17-cv-00561-RAJ Document 12 Filed 02/08/18 Page 13 of 13

1 of substantive due process, must be the guide for analyzing these claims.”). The Court
2 agrees. Further, Plaintiff does not offer any argument to the contrary. Defendants’
3 motion to dismiss Plaintiff’s Fifth Amendment claim is GRANTED.
4

V.

5

For the foregoing reasons, the Court GRANTS Defendants’ Motion to Dismiss.

CONCLUSION

6 Dkt. # 4.
7
8

Dated this 8th day of February, 2018.

9

A

10
11

The Honorable Richard A. Jones
United States District Judge

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

ORDER - 13

Appendix - 013

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

DUY T. MAI,

No. 18-36071
Plaintiff-Appellant,
D.C. No.
2:17-cv-00561-RAJ

v.
UNITED STATES OF AMERICA;
UNITED STATES DEPARTMENT OF
JUSTICE; BUREAU OF ALCOHOL,
TOBACCO, FIREARMS, AND
EXPLOSIVES; FEDERAL BUREAU
OF INVESTIGATION; WILLIAM P.
BARR, Attorney General;
CHRISTOPHER A. WRAY, as
Director of the Federal Bureau of
Investigation; REGINA
LOMBARDO, as Acting Director
of the Bureau of Alcohol,
Tobacco, Firearms, and
Explosives,
Defendants-Appellees.

OPINION

Appeal from the United States District Court
for the Western District of Washington
Richard A. Jones, District Judge, Presiding
Argued and Submitted December 11, 2019
Seattle, Washington

Appendix - 014

2

MAI V. UNITED STATES
Filed March 11, 2020
Before: Susan P. Graber and Ronald M. Gould, Circuit
Judges, and David A. Ezra,* District Judge.
Opinion by Judge Graber

SUMMARY**

Civil Rights
The panel affirmed the district court’s dismissal of a
42 U.S.C. § 1983 complaint containing an as-applied Second
Amendment challenge to 18 U.S.C. § 922(g)(4), which
prohibits plaintiff from possessing firearms due to his
involuntary commitment in 1999 to a mental institution for
more than nine months after a Washington state court found
plaintiff to be both mentally ill and dangerous.
Plaintiff argued that § 922(g)(4)’s continued application
to him despite his alleged return to mental health and
peaceableness violated the Second Amendment. The panel
held that, assuming (without deciding) that § 922(g)(4)’s
prohibition burdens Second Amendment rights, intermediate
scrutiny applied. The panel also held that the prohibition on
the possession of firearms by persons, like plaintiff, whom a

*

The Honorable David A. Ezra, United States District Judge for the
District of Hawaii, sitting by designation.
**
This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

Appendix - 015

MAI V. UNITED STATES

3

state court has found to be both mentally ill and dangerous is
a reasonable fit with the government’s indisputably important
interest in preventing gun violence. Scientific evidence
supported the congressional judgment that those who have
been committed involuntarily to a mental institution still pose
an increased risk of violence even years after their release
from commitment. The panel therefore concluded that
Section 922(g)(4)’s continued application to plaintiff did not
violate the Second Amendment.

COUNSEL
Vitaliy Kertchen (argued), Tacoma, Washington, for
Plaintiff-Appellant.
Abby C. Wright (argued) and Michael S. Raab, Appellate
Staff; Brian T. Moran, United States Attorney; Joseph H.
Hunt, Assistant Attorney General; Civil Division, United
States Department of Justice, Washington, D.C.; for
Defendants-Appellees.

OPINION
GRABER, Circuit Judge:
Plaintiff Duy Mai recently sought to buy a firearm, but
federal law barred him from doing so. A number of years
ago, Plaintiff was committed involuntarily, for more than
nine months, to a mental institution after a Washington state
court found him to be both mentally ill and dangerous. Title
18 U.S.C. § 922(g)(4) prohibits the possession of firearms
by those, like Plaintiff, whom a state court committed
Appendix - 016

4

MAI V. UNITED STATES

involuntarily to a mental institution. Plaintiff concedes that
the statutory prohibition on his possession of firearms during
the period of his commitment was constitutional under the
Second Amendment. But Plaintiff here brings an as-applied
challenge to § 922(g)(4), arguing that its continued
application to him despite his alleged return to mental health
and peaceableness violates the Second Amendment. We hold
that, assuming (without deciding) that § 922(g)(4)’s
prohibition burdens Second Amendment rights, intermediate
scrutiny applies. We also hold that the prohibition on the
possession of firearms by persons, like Plaintiff, whom a state
court has found to be both mentally ill and dangerous is a
reasonable fit with the government’s indisputably important
interest in preventing gun violence. Scientific evidence
supports the congressional judgment that those who have
been committed involuntarily to a mental institution still pose
an increased risk of violence even years after their release
from commitment. Section 922(g)(4)’s continued application
to Plaintiff does not violate the Second Amendment. We
therefore affirm the district court’s dismissal of this action.
BACKGROUND1
In October 1999, a Washington state court committed
Plaintiff involuntarily for mental health treatment after he
threatened himself and others. The state court determined
that Plaintiff was both mentally ill and dangerous. Plaintiff’s

1

Because we are reviewing the dismissal of a complaint, we accept
as true its well-pleaded factual allegations. Nayab v. Capital One Bank
(USA), N.A., 942 F.3d 480, 487 (9th Cir. 2019).

Appendix - 017

MAI V. UNITED STATES

5

commitment lasted more than nine months,2 ending in August
2000. Plaintiff was seventeen years old at the time of
commitment, and his commitment spanned his eighteenth
birthday.
Since his release from commitment in 2000, Plaintiff has
earned a GED, a bachelor’s degree, and a master’s degree.
He is gainfully employed and a father to two children.
According to the complaint, he no longer suffers from mental
illness, and he lives “a socially-responsible, well-balanced,
and accomplished life.”
As a result of Plaintiff’s involuntary commitment,
Washington law prohibited him from possessing a firearm.
Wash. Rev. Code § 9.41.040(2)(a)(iv). Washington law,
though, allows persons to petition for relief from that
prohibition if they meet certain conditions.
Id.
§ 9.41.047(3)(a). In 2014, Plaintiff successfully petitioned a
Washington state court for relief. The court found, pursuant
to the requirements of Washington law, that “(1) [Plaintiff] is
no longer required to participate in court-ordered inpatient or
outpatient treatment; (2) [Plaintiff] has successfully managed
the condition related to his commitment; (3) [Plaintiff] no
longer presents a substantial danger to himself, or the public;
and (4) [t]he symptoms related to the commitment are not
reasonably likely to recur.” See id. § 9.41.047(3)(c)
(requiring those findings). Accordingly, the relevant state
law no longer prohibits Plaintiff from possessing a firearm.

2

The record strongly suggests that a state court committed Plaintiff
involuntarily three separate times during the nine-month period in 1999
and 2000. The complaint is ambiguous on this point. Because the number
of commitments does not alter the analysis, we assume that a state court
committed Plaintiff involuntarily only once, for a period of nine months.

Appendix - 018

6

MAI V. UNITED STATES

But, as a result of his involuntary commitment, federal
law prohibits Plaintiff from possessing a firearm. Title
18 U.S.C. § 922(g)(4) bars individuals who have been
“committed to a mental institution” from possessing
firearms.3 Federal regulations make clear that the prohibition
does not apply to “a person in a mental institution for
observation or a voluntary admission to a mental institution.”
27 C.F.R. § 478.11. Involuntary commitments comport with
due process only when the individual is found to be both
mentally ill and dangerous. Foucha v. Louisiana, 504 U.S.
71, 80 (1992). Additionally, commitments under state-law
procedures that lack robust judicial involvement do not
qualify as commitments for purposes of § 922(g)(4). United
States v. Rehlander, 666 F.3d 45, 47–49 (1st Cir. 2012). We
agree with the parties that Plaintiff’s involuntary commitment
by the Washington state court—which found Plaintiff to be
both mentally ill and dangerous—qualifies as a
“commitment” for purposes of § 922(g)(4). Section
922(g)(4), then, bars Plaintiff from possessing a firearm.
Federal law provides two potential avenues for relief from
the § 922(g)(4) bar but, as explained below, neither avenue is
currently available to Plaintiff.
First, under 18 U.S.C. § 925(c), Plaintiff may apply to the
United States Attorney General “for relief from the
disabilities imposed by Federal laws with respect to the . . .

3

“It shall be unlawful for any person . . . who has been adjudicated
as a mental defective or who has been committed to a mental institution
. . . [to] possess in or affecting commerce, any firearm or ammunition; or
to receive any firearm or ammunition which has been shipped or
transported in interstate or foreign commerce.” 18 U.S.C. § 922(g)(4).

Appendix - 019

MAI V. UNITED STATES

7

possession of firearms.”4 Beginning in 1986, that provision
extended to persons who had been involuntarily committed to
a mental institution. Firearms Owners’ Protection Act, Pub.
L. 99-308, § 105, 100 Stat. 449 (1986). The Attorney
General may, but is not required to, grant relief “if it is
established to his satisfaction that the circumstances
regarding the disability, and the applicant’s record and
reputation, are such that the applicant will not be likely to act
in a manner dangerous to public safety and that the granting
of the relief would not be contrary to the public interest.” Id.;
see United States v. Bean, 537 U.S. 71, 77 (2002) (noting the
discretionary nature of the decision and observing that relief

4

Section 925(c) provides, in relevant part:
A person who is prohibited from possessing . . .
firearms or ammunition may make application to the
Attorney General for relief from the disabilities
imposed by Federal laws with respect to the . . .
possession of firearms, and the Attorney General may
grant such relief if it is established to his satisfaction
that the circumstances regarding the disability, and the
applicant’s record and reputation, are such that the
applicant will not be likely to act in a manner
dangerous to public safety and that the granting of the
relief would not be contrary to the public interest. Any
person whose application for relief from disabilities is
denied by the Attorney General may file a petition with
the United States district court for the district in which
he resides for a judicial review of such denial. The
court may in its discretion admit additional evidence
where failure to do so would result in a miscarriage of
justice. . . . Whenever the Attorney General grants
relief to any person pursuant to this section he shall
promptly publish in the Federal Register notice of such
action, together with the reasons therefor.

Appendix - 020

8

MAI V. UNITED STATES

may be denied “even when the statutory prerequisites are
satisfied”).
That statutory option, however, is currently foreclosed to
Plaintiff and all others. Since 1992, Congress has prohibited
the use of funds “to investigate or act upon applications for
relief from Federal firearms disabilities under 18 U.S.C.
[§ ]925(c).” Bean, 537 U.S. at 74–75 (alteration in original)
(quoting Treasury, Postal Service, and General Government
Appropriations Act, 1993, Pub. L. No. 102-393, 106 Stat.
1729, 1732 (1992)); see also id. at 75 n.3 (citing later
appropriations acts with the same prohibition); Hatfield v.
Barr, 925 F.3d 950, 952 (7th Cir. 2019) (“[S]ince 1992
Congress has withheld funds to implement § 925(c).”).
Congress defunded the program because, among other
reasons, determining eligibility had proved to be a “very
difficult and subjective task which could have devastating
consequences for innocent citizens if the wrong decision is
made.” S. Rep. No. 102-353, at 19 (1992). Accordingly,
unless Congress chooses in the future to fund the federal
program, any application by Plaintiff for relief pursuant to
§ 925(c) would be futile. See Bean, 537 U.S. at 76 (holding
that, while funding is withheld, judicial review is also
unavailable).
Plaintiff’s second potential avenue for relief is through a
state program that qualifies under 34 U.S.C. § 40915. To
qualify, the state’s program must “permit[] a person who,
pursuant to State law, . . . has been committed to a mental
institution, to apply to the State for relief from the disabilities
imposed by” 18 U.S.C. § 922(g)(4) and other laws. Id.
§ 40915(a)(1). The program also must provide

Appendix - 021

MAI V. UNITED STATES

9

that a State court, board, commission, or other
lawful authority shall grant the relief, pursuant
to State law and in accordance with the
principles of due process, if the circumstances
regarding the disabilities . . . , and the
person’s record and reputation, are such that
the person will not be likely to act in a manner
dangerous to public safety and that the
granting of the relief would not be contrary to
the public interest.
Id. § 40915(a)(2). Finally, the program must allow a person
to petition the state court “for a de novo judicial review of [a]
denial.” Id. § 40915(a)(3). For a person granted relief under
a qualifying state program, § 922(g)(4)’s prohibition on the
possession of firearms does not apply. Id. § 40915(b).
According to the government, “approximately thirty
States” have created qualifying programs. See also Bureau of
Justice Statistics, State Profiles: NICS Act Record
Improvement Program (NARIP) Awards FY 2009–2018,
https://www.bjs.gov/index.cfm?ty=tp&tid=491 (providing
state-by-state information suggesting that thirty states and one
tribe have qualifying programs).
As noted above,
Washington law provides a mechanism for persons to petition
for relief from the state-law prohibition on the possession of
firearms. But that mechanism does not qualify under § 40915
because, among other reasons, the factual findings required
by Washington law differ from the factual findings required
by § 40915. Washington law requires a finding that the
person “no longer presents a substantial danger to himself or
herself, or the public.” Wash. Rev. Code § 9.41.047(3)(c)(iii)
(emphasis added). By contrast, the federal standard requires
a determination that “the person will not be likely to act in a
Appendix - 022

10

MAI V. UNITED STATES

manner dangerous to public safety.” 34 U.S.C. § 40915(a)(2)
(emphasis added). Additionally, § 40915(a)(2) requires a
finding that granting “relief would not be contrary to the
public interest,” while Washington law requires no such
inquiry. In other words, the federal standard is more stringent
than the Washington standard.
Accordingly, unless
Washington chooses in the future to create a program that
meets the requirements of § 40915, Plaintiff has no avenue
for relief from § 922(g)(4)’s prohibition.
Plaintiff filed this action in 2017 after he was denied the
purchase of a firearm because of § 922(g)(4). He alleges that
the Department of Justice; the United States Attorney
General; the Federal Bureau of Investigation; and the Bureau
of Alcohol, Tobacco, Firearms, and Explosives (collectively,
“the government”) violated his Second Amendment right to
bear arms and his Fifth Amendment right to due process by
prohibiting him from possessing firearms.
The government moved to dismiss the complaint for
failure to state a claim. The district court granted that motion,
holding that § 922(g)(4) is categorically constitutional under
the Second Amendment and, alternatively, that § 922(g)(4)
satisfies intermediate scrutiny. The court also rejected
Plaintiff’s due process claim. Plaintiff then sought leave to
amend the complaint, which the court denied as futile.
Plaintiff timely appeals.
STANDARD OF REVIEW
We review de novo a district court’s decision to grant a
motion to dismiss, Nayab, 942 F.3d at 487, as well as a
challenge to the constitutionality of statutes, United States v.
Torres, 911 F.3d 1253, 1257 (9th Cir. 2019). “When a
Appendix - 023

MAI V. UNITED STATES

11

district court determines that further amendment would be
futile, we will affirm the district court’s dismissal on this
basis if it is clear, upon de novo review, that the complaint
could not be saved by any amendment.” Curry v. Yelp Inc.,
875 F.3d 1219, 1228 (9th Cir. 2017) (internal quotation marks
omitted).
DISCUSSION
As this case reaches us, Plaintiff advances only his
Second Amendment claim. He argues that the Second
Amendment requires that he be allowed to possess firearms
notwithstanding his earlier involuntary commitment. He does
not specify the standard by which federal courts should
measure whether persons, like Plaintiff, are sufficiently
rehabilitated for purposes of the Second Amendment.
Notably, though, Plaintiff does not seek the application of the
substantive standards defined in 34 U.S.C. § 40915. He has
never asserted, for example, an equal-protection claim that,
because persons in thirty other states benefit from programs
applying § 40915’s substantive standards, he too is entitled
to relief or to an opportunity to meet those standards. Nor
has he advanced, on appeal, an argument that due process
demands the same results. See Smith v. Marsh, 194 F.3d
1045, 1052 (9th Cir. 1999) (holding that arguments not raised
in the opening brief are forfeited). We therefore do not
consider whether those theories have merit, and we turn to the
only claim on appeal: whether the Second Amendment
requires that Plaintiff be allowed to possess firearms.
The “Second Amendment protects the right to keep and
bear arms for the purpose of self-defense.” McDonald v. City
of Chicago, 561 U.S. 742, 749–50 (2010). But the right is
“not unlimited.” District of Columbia v. Heller, 554 U.S.
Appendix - 024

12

MAI V. UNITED STATES

570, 595 (2008). The Supreme Court clarified that its
recognition of the Second Amendment right does not “cast
doubt on longstanding prohibitions on the possession of
firearms by felons and the mentally ill, or laws forbidding the
carrying of firearms in sensitive places such as schools and
government buildings, or laws imposing conditions and
qualifications on the commercial sale of arms.” Id.
at 626–27; accord McDonald, 561 U.S. at 786. Those
prohibitions are “presumptively lawful.” Heller, 554 U.S.
at 627 n.26.
Applying the lessons from Heller and McDonald, we
have adopted a two-step inquiry for assessing whether a law
violates the Second Amendment. Torres, 911 F.3d at 1258.
“This test ‘(1) asks whether the challenged law burdens
conduct protected by the Second Amendment and (2) if so,
directs courts to apply an appropriate level of scrutiny.’” Id.
(quoting United States v. Chovan, 735 F.3d 1127, 1136 (9th
Cir. 2013)).
Whether § 922(g)(4)’s prohibition on the possession of
firearms by persons who have been committed to a mental
institution comports with the Second Amendment is an issue
of first impression in this circuit. But we are guided by our
previous decisions in related contexts. See, e.g., id. at 1264
(holding that § 922(g)(5)’s prohibition on the possession of
firearms by unlawful aliens survives intermediate scrutiny);
Chovan, 735 F.3d at 1142 (holding that § 922(g)(9)’s
prohibition on the possession of firearms by persons
previously convicted of a domestic violence misdemeanor
survives intermediate scrutiny); United States v. Vongxay,
594 F.3d 1111, 1118 (9th Cir. 2010) (holding that
§ 922(g)(1)’s prohibition on the possession of firearms by
felons comports with the Second Amendment).
Appendix - 025

MAI V. UNITED STATES

13

Decisions by the Third and Sixth Circuits addressing
§ 922(g)(4) also inform our analysis. Those courts have
addressed challenges remarkably similar to Plaintiff’s
challenge here and have reached opposite conclusions. In
both Beers v. Attorney General, 927 F.3d 150, 152 (3d Cir.
2019), petition for cert. filed, __ U.S.L.W. __ (U.S. Jan. 9,
2020) (No. 19-864), and Tyler v. Hillsdale County Sheriff’s
Department, 837 F.3d 678, 683–84 (6th Cir. 2016) (en banc),
a state court had committed the plaintiff many years ago to a
mental institution but, according to the plaintiff, he was now
free of mental illness. In both cases, the plaintiff argued that,
as applied to him, § 922(g)(4)’s prohibition violated the
Second Amendment.
The Third Circuit rejected the claim, concluding that
§ 922(g)(4) did not burden conduct protected by the Second
Amendment. Beers, 927 F.3d at 159. Accordingly, the
plaintiff’s alleged return to mental health was irrelevant to the
constitutional analysis. Id.
By contrast, the Sixth Circuit reversed the district court’s
dismissal of the claim and remanded for further proceedings.
Tyler, 837 F.3d at 699. The court first concluded that
§ 922(g)(4) burdened Second Amendment rights and that
intermediate scrutiny applied. Id. at 688–93. The court then
held that § 922(g)(4) did not survive intermediate scrutiny as
applied to the plaintiff because the government had failed to
show that a lifetime prohibition on the possession of firearms
was a reasonable fit with the goals of reducing crime and
suicide. Id. at 693–99.
We turn, then, to our own analysis.

Appendix - 026

14

MAI V. UNITED STATES
A. Asking Whether § 922(g)(4) Burdens Second
Amendment Rights

We first ask whether the statute at issue “burdens conduct
protected by the Second Amendment.” Torres, 911 F.3d
at 1258 (quoting Chovan, 735 F.3d at 1136). This inquiry
“requires us to explore the amendment’s reach based on a
historical understanding of the scope of the Second
Amendment right.” Id. (internal quotation marks and
brackets omitted).
A law does not burden Second
Amendment rights “if it either falls within one of the
‘presumptively lawful regulatory measures’ identified in
Heller or regulates conduct that historically has fallen outside
the scope of the Second Amendment.” Id. (some internal
quotation marks omitted).
The government has presented a strong argument that
both of those inquiries support the conclusion that § 922(g)(4)
does not burden Second Amendment rights. The Supreme
Court identified as presumptively lawful the “longstanding
prohibitions on the possession of firearms by felons and the
mentally ill.” Heller, 554 U.S. at 626. In Vongxay, 594 F.3d
at 1114–15, we held that § 922(g)(1)—the federal prohibition
on the possession of firearms by felons—fell within Heller’s
“presumptively lawful” category. Like the federal prohibition
as to felons, § 922(g)(4) had been on the books for decades
when the Court decided Heller. Similarly, historical evidence
supports the view that society did not entrust the mentally ill
with the responsibility of bearing arms. See, e.g., Beers,
927 F.3d at 157–58 (summarizing the historical evidence).
Plaintiff responds by re-framing the inquiry. He concedes
that a prohibition as to those persons who are presently
mentally ill and dangerous does not implicate the Second
Appendix - 027

MAI V. UNITED STATES

15

Amendment. But he reads both Heller and the historical
evidence as limited to that circumscribed category: those
who are presently mentally ill. He urges us to agree with the
Sixth Circuit that “historical evidence . . . does not directly
support the proposition that persons who were once
committed due to mental illness are forever ineligible” to
possess a firearm. Tyler, 837 F.3d at 689.
We need not decide which perspective better comports
with the historical evidence. Instead, we follow the “welltrodden and ‘judicious course’” taken by our court in many
recent cases. Pena v. Lindley, 898 F.3d 969, 976 (9th Cir.
2018) (quoting Woollard v. Gallagher, 712 F.3d 865, 876
(4th Cir. 2013)), petition for cert. filed, __ U.S.L.W. __ (U.S.
Dec. 28, 2018) (No. 18-843). We assume, without deciding,
that § 922(g)(4), as applied to Plaintiff, burdens Second
Amendment rights.
B. Determining the Appropriate Level of Scrutiny
We next “determine the appropriate level of scrutiny to
apply.” Torres, 911 F.3d at 1262. “[L]aws burdening Second
Amendment rights must withstand more searching scrutiny
than rational basis review.” Id. The precise level of
heightened scrutiny depends “on (1) how close the law comes
to the core of the Second Amendment right and (2) the
severity of the law’s burden on the right.” Chovan, 735 F.3d
at 1138 (internal quotation marks omitted). “[T]here has been
near unanimity in the post-Heller case law that, when
considering regulations that fall within the scope of the
Second Amendment, intermediate scrutiny is appropriate.”
Torres, 911 F.3d at 1262 (internal quotation marks omitted).
Strict scrutiny applies only to laws that both implicate a core

Appendix - 028

16

MAI V. UNITED STATES

Second Amendment right and place a substantial burden on
that right. Id.
As Plaintiff recognizes, intermediate scrutiny applies
here. “[T]he core of the Second Amendment is ‘the right of
law-abiding, responsible citizens to use arms in defense of
hearth and home.’” Chovan, 735 F.3d at 1138 (quoting
Heller, 554 U.S. at 635). In Chovan, we concluded that,
regardless of present-day rectitude, a person convicted long
ago of a domestic-violence misdemeanor was not a “lawabiding, responsible citizen.” Id. That same logic extends
here: Regardless of present-day peaceableness, a person who
required formal intervention and involuntary commitment
by the State because of the person’s dangerousness is not a
“law-abiding, responsible citizen.” Section 922(g)(4)’s
prohibition thus falls well outside the core of the Second
Amendment right. Id.
We recognize that the burden that § 922(g)(4)’s
prohibition places on Plaintiff is “quite substantial.” Id.
Unless Congress or the Washington legislature enacts a
program relieving him from § 922(g)(4)’s prohibition, the law
“amounts to a ‘total prohibition’ on firearm possession for
[Plaintiff]—in fact, a ‘lifetime ban.’” Id. But we agree with
the Sixth Circuit that, “[l]ike the other provisions of § 922(g),
§ 922(g)(4) does not burden the public at large; it burdens
only a narrow class of individuals who are not at the core of
the Second Amendment—those . . . previously involuntarily
committed.” Tyler, 837 F.3d at 691. Just as intermediate
scrutiny applies to the other lifetime bans in § 922(g), so too
does intermediate scrutiny apply to § 922(g)(4)’s prohibition.
See, e.g., Chovan, 735 F.3d at 1138 (applying intermediate
scrutiny to § 922(g)(9)’s prohibition on the possession of
firearms by those previously convicted of the misdemeanor
Appendix - 029

MAI V. UNITED STATES

17

of domestic violence); see also Tyler, 837 F.3d at 691–92
(collecting cases from other circuits that have applied
intermediate scrutiny to lifetime bans imposed by § 922(g)).
In conclusion, we join the Sixth Circuit—the only other
circuit court to have addressed the issue—in holding that
intermediate scrutiny applies here.
Tyler, 837 F.3d
at 690–92.
C. Applying Intermediate Scrutiny
To satisfy intermediate scrutiny, the government’s
statutory objective must be “significant, substantial, or
important,” and there must be a “reasonable fit” between the
challenged law and that objective. Silvester v. Harris,
843 F.3d 816, 821–22 (9th Cir. 2016) (internal quotation
marks omitted). “A statute need not utilize the least
restrictive means of achieving its interest in order to
withstand intermediate scrutiny.” Torres, 911 F.3d at 1263
(internal quotation marks omitted). “Instead, the statute
simply needs to promote a substantial government interest
that would be achieved less effectively absent the regulation.”
Id. (brackets and internal quotation marks omitted).
Here, two important interests support § 922(g)(4)’s ban
on the possession of firearms by those who were involuntarily
committed to a mental institution: preventing crime and
preventing suicide. See Washington v. Glucksberg, 521 U.S.
702, 730–35 (1997) (recognizing the government’s
“unquestionably important” interest in preventing suicide);
Schall v. Martin, 467 U.S. 253, 264 (1984) (“The legitimate
and compelling state interest in protecting the community
from crime cannot be doubted.” (internal quotation marks
omitted)); Torres, 911 F.3d at 1263 (holding that the
Appendix - 030

18

MAI V. UNITED STATES

government’s interests in crime control and public safety are
“important”). We agree with the Sixth Circuit that those two
interests “are not only legitimate, they are compelling.”5
Tyler, 837 F.3d at 693.
Congress’ reasoning is straightforward.
Firearms
undoubtedly exacerbate acts of violence to others. Bonidy v.
U.S. Postal Serv., 790 F.3d 1121, 1126 (10th Cir. 2015).
Firearms also greatly increase the risk of death by suicide.
See, e.g., Matthew Miller & David Hemenway, Guns and
Suicide in the United States, 359 New Eng. J. Med. 989, 990
(2008) (“A suicide attempt with a firearm rarely affords a
second chance. Attempts involving drugs or cutting, which
account for more than 90% of all suicidal acts, prove fatal far
less often.”); id. at 991 (discrediting as “invalid” the specious
belief that “anyone who is serious enough about suicide to
use a gun would find an equally effective means if a gun were
not available”); id. (concluding that “the availability of lethal
means . . . can make the difference between life and death”).
In enacting § 922(g)(4) and related restrictions, “Congress
sought to . . . keep guns out of the hands of those who have
demonstrated that they may not be trusted to possess a
firearm without becoming a threat to society.” Dickerson v.
New Banner Inst., Inc., 460 U.S. 103, 112 (1983) (quoting
Lewis v. United States, 445 U.S. 55, 63 (1980)), superseded
in other part by statute, as stated in Logan v. United States,
552 U.S. 23, 27–28 (2007); accord Small v. United States,
544 U.S. 385, 393 (2005); Lewis v. United States, 445 U.S.

5

Because we determine that § 922(g)(4) is a reasonable fit for the
government’s interest in preventing suicide, we need not and do not
address whether the statute is also a reasonable fit for the government’s
interest in preventing crime.

Appendix - 031

MAI V. UNITED STATES

19

55, 63 (1980); Scarborough v. United States, 431 U.S. 563,
572 (1977). Put more succinctly, “Congress’ intent in
enacting [§] 922(g) and [related laws] was to keep firearms
out of the hands of presumptively risky people.” Dickerson,
460 U.S. at 112 n.6. Accordingly, although § 922(g)(4)’s
prohibition takes effect as a result of a past event, the statute
“target[s] a present danger, i.e., the danger posed by [those
who previously have been involuntarily committed to a
mental institution] who bear arms.” Vartelas v. Holder,
566 U.S. 257, 271 (2012) (emphasis added).
The Second Amendment allows categorical bans on
groups of persons who presently pose an increased risk of
violence. See, e.g., United States v. Skoien, 614 F.3d 638,
641 (7th Cir. 2010) (en banc) (“[S]ome categorical
disqualifications are permissible: Congress is not limited to
case-by-case exclusions of persons who have been shown to
be untrustworthy with weapons . . . .”). For example, we
upheld the constitutionality of § 922(g)(9)’s ban on the
possession of firearms by domestic violence misdemeanants
because that category of persons has a high rate of domestic
violence recidivism and because the use of firearms by
domestic abusers causes more deaths. Chovan, 735 F.3d
at 1140–41. And we upheld the constitutionality of
§ 922(g)(5)’s ban on the possession of firearms by unlawful
aliens because that category of persons has “an inherent
incentive to . . . evade law enforcement” and, if armed, “could
pose a threat to immigration officers or other law
enforcement.” Torres, 911 F.3d at 1264.
Similarly, in enacting § 922(g)(4), Congress determined
that, like felons and domestic-violence assailants, those who
have been involuntarily committed to a mental institution also
pose an increased risk of violence. As we explain below,
Appendix - 032

20

MAI V. UNITED STATES

scientific evidence amply supports that congressional
judgment. Section 922(g)(4)’s prohibition is therefore a
reasonable fit for the government’s laudable goal of
preventing gun violence.
Plaintiff does not challenge that conclusion as a general
matter. Indeed, he concedes that § 922(g)(4)’s prohibition
justifiedly applied to him originally. Instead, Plaintiff brings
an as-applied challenge only. He argues that the continued
application of the prohibition to him is no longer justified
because of the passage of time and his alleged mental health
and peaceableness in recent years. For the reasons that
follow, we disagree.
1. Scientific Evidence Reasonably Supports Congress’
Judgment.
The scientific evidence cited by the government shows an
increased risk of violence for those who have been released
from involuntary commitment. For example, the authors of
one meta-analysis surveyed the available scientific literature
that studied the relationship between a history of mental
illness and the risk of suicide. E. Clare Harris & Brian
Barraclough, Suicide as an Outcome for Mental Disorders: A
Meta-Analysis, 170 Brit. J. Psychiatry 205 (1997) [hereinafter
Suicide Meta-Analysis]. The authors found that studies of
persons released from involuntary commitment reported a
combined “suicide risk 39 times that expected.”6 Id. at 220
(emphasis added). That extraordinarily increased risk of

6

The authors defined the “expected” rate of suicide as either the rate
calculated by the authors of the individual study or the background rate for
the general population of the relevant country, controlling for years of the
study, age, and gender. Suicide Meta-Analysis, supra, at 205.

Appendix - 033

MAI V. UNITED STATES

21

suicide clearly justifies the congressional judgment that those
released from involuntary commitment pose an increased risk
of suicide.
Plaintiff correctly points out that the scientific evidence
is not a perfect match for his circumstances. For example,
although suicide risk following release from commitment is
extremely high, the risk “seems highest” initially and
“diminishes thereafter.” Id. at 223. Furthermore, the studies
followed the outcomes of those released from involuntary
commitment for up to 8.5 years, whereas Plaintiff was
released from involuntary commitment two decades ago.
Channeling the Sixth Circuit’s analysis, Plaintiff urges us to
conclude that the government’s cited studies are insufficient
to support the congressional judgment that he poses an
increased risk of suicide. Tyler, 837 F.3d at 695–96.
We disagree. In assessing congressional judgment, “we
do not impose an ‘unnecessarily rigid burden of proof,’ and
we allow [the government] to rely on any material
‘reasonably believed to be relevant’ to substantiate its
interests.” Pena, 898 F.3d at 979 (quoting Mahoney v.
Sessions, 871 F.3d 873, 881 (9th Cir. 2017)). That standard
applies because “we are weighing a legislative judgment, not
evidence in a criminal trial.” Id. Thus, we do not require
“scientific precision.” Id. at 984. We ask only whether the
evidence “fairly supports” Congress’ “reasonable”
conclusions. Id. at 979–80 (quoting Jackson v. City of San
Francisco, 746 F.3d 953, 969 (9th Cir. 2014)); see also
Jackson, 746 F.3d at 969 (holding that, even if the relevant
science were “an open question,” that conclusion “is
insufficient to discredit [a legislative body’s] reasonable
conclusions”). When empirical evidence is incomplete, we
“must accord substantial deference to the predictive
Appendix - 034

22

MAI V. UNITED STATES

judgments of Congress.” Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622, 665 (1994). “Sound policymaking often
requires legislators to forecast future events and to anticipate
the likely impact of these events based on deductions and
inferences for which complete empirical support may be
unavailable.” Id.
Scientific studies show an ever-present increased risk of
violence for those who were committed involuntarily, even
well after they are released. We cannot conclude that,
because no one apparently has published a study beyond
8.5 years after the participants’ release from involuntary
commitment, Congress may not infer that the increased risk
of violence continues after that time period. Importantly, the
studies did not show merely a slight increase in risk for those
involuntarily committed; the studies reported “a suicide risk
39 times that expected.” Suicide Meta-Analysis, supra, at 220
(emphasis added). It was well within Congress’ legislative
discretion to predict that the increased risk would not
plummet to zero in later years.
Closely related studies confirm that suicide risk remains
extremely high for those with a history of mental illness, even
when studies continue beyond a decade after treatment.
“Previously hospitalised patients” were studied for “up to
15 years after discharge from in-patient treatment,” and they
had “a suicide risk seven times that expected.” Id. at 221.
“Community care patients” were studied for up to 12 years,
and they had a “suicide risk almost 13 times that expected.”
Id. “Out-patients” were studied for up to 12 years, and they
had “a suicide risk 18 times that expected.” Id. Studies that
did not differentiate between the types of treatment that
patients received were conducted for up to 15 years and
reported “a suicide risk 11 times that expected.” Id.
Appendix - 035

MAI V. UNITED STATES

23

In sum, although the scientific evidence suggests that
Plaintiff’s increased risk of suicide decreases over time,
nothing suggests that it ever dissipates entirely.7 Scientific
evidence thus fairly supports the congressional judgment that
those who have been involuntarily committed to a mental
institution continue to pose an increased risk of violence even
many years after their release from commitment. See
Chovan, 735 F.3d at 1142 (rejecting an as-applied challenge
to § 922(g)(9)’s prohibition on a domestic violence
misdemeanant because he had not “directly proved that if a
domestic abuser has not committed domestic violence for
fifteen years, that abuser is highly unlikely to do so again”).
Plaintiff has asserted that, because he was released from
commitment years ago, no longer suffers from mental illness,
and has been peaceable in recent years, the Second
Amendment requires that he be allowed to possess firearms.
But we emphasize that we are assessing congressional
judgment about a category of persons, not about Plaintiff
himself. As described above, scientific evidence reasonably
supports the congressional judgment about that category of
persons. We agree with the Sixth Circuit that the Second
Amendment does not demand “an individualized hearing” to
assess Plaintiff’s own personal level of risk. Tyler, 837 F.3d
at 698 n.18; see also Torres, 911 F.3d at 1264 n.6 (holding

7

In other contexts, scientific consensus exists that, over time, a
particular increased risk dissolves entirely.
For example, the
American Cancer Society reports that, fifteen years after quitting smoking,
a former smoker’s “risk of coronary heart disease is that of a nonsmoker’s.” Am. Cancer Soc’y, Benefits of Quitting Smoking Over Time,
https://www.cancer.org/healthy/stay-away-from-tobacco/benefits-ofquitting-smoking-over-time.html. We have located nothing similar in the
present context.

Appendix - 036

24

MAI V. UNITED STATES

that, under intermediate scrutiny, some amount of overinclusiveness for a firearms prohibition is permissible).
But even if we were to consider his personal situation,
Plaintiff’s own anecdotal evidence of his psychological
evaluations in 2014 confirms what the scientific literature
explains: Although his present level of risk is lower than it
was around the time of his commitment, his history of mental
illness remains a scientifically recognized factor in evaluating
his current level of risk. One of Plaintiff’s doctors wrote that
a history of mental illness is “associated with higher risk of
aggression.” Plaintiff’s results on one psychological test
showed less of a risk than “the base rate for individuals with
a psychiatric history”; one doctor concluded that he has a
“low risk for future violence”; and another doctor concluded
that he does not “represent[] a significant suicide risk.” But
nothing in the record suggests that Plaintiff’s level of risk is
nonexistent or that his level of risk matches the risk
associated with a similarly situated person who lacks a
history of mental illness.
2. Congress Has Not Reconsidered Its Judgment.
Congress’ 2008 enactment of 34 U.S.C. § 40915 does not
affect our analysis. As described above, § 40915 allows
states to create their own “relief from disabilities” programs.
The Sixth Circuit held that § 40915 “is a clear indication that
Congress does not believe that previously committed persons
are sufficiently dangerous as a class” to prohibit them from
possessing firearms. Tyler, 837 F.3d at 697. We understand
Congress’ enactment of § 40915 differently.
Congress enacted § 40915 as part of the NICS
Improvement Amendments Act of 2007 (“NIAA”), 34 U.S.C.
Appendix - 037

MAI V. UNITED STATES

25

§§ 40902–40941. As its name suggests, the NIAA aimed to
improve the National Instant Criminal Background Check
System (“NICS”), the federal background-check system that
includes a database listing persons who have been
disqualified from possessing firearms. Id. § 40902. Congress
passed the NIAA in response to horrible acts of gun violence
by those with a history of mental illness. Id. § 40902(8)–(9).
All of the NIAA’s substantive provisions other than § 40915
seek to improve the information contained in the federal
database. See, e.g., id. § 40911 (requiring federal agencies to
share information); id. §§ 40912–40914 (encouraging states
to share information).
The NIAA was a political compromise that included
§ 40915’s avenue for relief for some of the least dangerous
only in exchange for greatly improved enforcement as to all
the rest, including the most dangerous.8 Congress’ statutory
extension of grace to some persons as part of a political
compromise aimed at preventing gun violence does not affect
our constitutional analysis. We do not read the NIAA as
disturbing the longstanding congressional judgment—
supported by scientific evidence—that those who were

8

See, e.g., 153 Cong. Rec. 15,676 (2007) (“In order to move the
legislation to the floor, it was necessary to make some accommodations
[including the addition of § 40915] to incorporate the concerns of gun
owners.” (statement of Rep. Conyers)); id. at 15,677 (“This legislation
represents a true compromise . . . [with] two diverse groups . . . , the NRA
and the Brady Group, coming together to help work out this legislation,
and both had some benefits from it.” (statement of Rep. Castle)); accord
153 Cong. Rec. 36,338 (2007) (“[T]his compromise legislation . . .
respects the rights of gun owners and, at the same time, makes sure that
the NICS system will work more effectively.” (statement of Sen. Leahy)).

Appendix - 038

26

MAI V. UNITED STATES

involuntarily committed to a mental institution pose an
increased risk of violence even years after their release.9
3. Section 922(g)(4) Is a Reasonable Fit for Preventing
Suicide.
To meet intermediate scrutiny, the government must
demonstrate that § 922(g)(4) is a “reasonable fit” for the goal
of reducing gun violence. Torres, 911 F.3d at 1263. As
described above, Congress reasonably concluded that
restricting firearms from persons with an increased risk of
violence advances the goal of reducing gun violence. Section
922(g)(4) thus appears to be a “reasonable fit” for the
government’s important interest. See id. (holding that, to
meet intermediate scrutiny, a “statute simply needs to
promote a substantial government interest that would be
achieved less effectively absent the regulation.” (brackets and
internal quotation marks omitted)).
But we also must consider the availability, or
unavailability, of avenues of relief from categorical, lifetime
bans. Fisher v. Kealoha, 855 F.3d 1067, 1071 (9th Cir. 2017)
(per curiam); Chovan, 735 F.3d at 1142. Plaintiff presently

9

Nor could Congress’ extension of grace to some persons alter the
meaning of the Second Amendment. Like many constitutional provisions,
the Second Amendment establishes a floor below which Congress may not
legislate. But if Congress chooses to legislate well above that floor—for
example, by allowing categories of persons to possess firearms even
though Congress could restrict possession—that legislation has no effect
on the meaning of the Second Amendment. See, e.g., Bracy v. Gramley,
520 U.S. 899, 904 (1997) (holding that “the Due Process Clause of the
Fourteenth Amendment establishes a constitutional floor, not a uniform
standard” and noting the existence of many laws that legislate above that
constitutional minimum).

Appendix - 039

MAI V. UNITED STATES

27

has no avenue for seeking relief from § 922(g)(4)’s
prohibition. Unless Congress funds the “relief from
disabilities” program defined in § 925(c) or the Washington
legislature creates a “relief from disabilities” program
pursuant to § 40915,10 federal law prohibits Plaintiff from
possessing a firearm. This case thus differs from challenges
to other lifetime bans imposed by § 922(g), because those
provisions allow persons to seek relief from the lifetime ban
in certain circumstances. See, e.g., Chovan, 735 F.3d at 1142
(noting the avenues for relief, such as a gubernatorial pardon,
available to domestic-violence misdemeanants).
Several factors lead us to conclude that § 922(g)(4)
nevertheless remains a reasonable fit for the congressional
goal of reducing gun violence. First, the governmental
interest at stake is compelling. The statute does not merely
aim to protect financial interests. Nor is the statute merely a
modest, incremental improvement in fighting crime. See,
e.g., Pena, 898 F.3d at 981–86 (upholding the
constitutionality of a law requiring some firearms to
“microstamp” identifying information onto discharged
bullets). The interest at stake here is preventing horrific acts
of violence. Suicide affects not only its immediate victim;
family members, friends, and the community as a whole
suffer immensely. Even a small decrease in the number of
suicides is, therefore, a significant public benefit.

10

That possibility is not fanciful. Soon after the Third Circuit rejected
the plaintiff’s challenge to § 922(g)(4) in Beers, 927 F.3d 150, the federal
government approved Pennsylvania’s state program under § 40915.
Petition for cert. 23 (U.S. Jan. 9, 2020) (No. 19-864). The plaintiff in
Beers is “now licensed to possess a firearm and has obtained one.” Id.

Appendix - 040

28

MAI V. UNITED STATES

Second, as discussed above, the scientific evidence
strongly suggests that the increased risk is not tiny. The
available studies, though an imperfect match for Plaintiff’s
precise circumstances, have found that those released from
involuntary commitment are 39 times more likely to commit
suicide than those not previously committed.
Finally, § 922(g)(4)’s prohibition as to those who were
committed involuntarily applies not to persons who
theoretically might be dangerous at some point in their lives.
Instead, it applies only to those who were found, through
procedures satisfying due process, actually dangerous in the
past.11 By limiting the prohibition to those with a
demonstrated history of dangerousness, § 922(g)(4) is more
narrowly tailored than other lifetime prohibitions that we
have upheld, such as § 922(g)(1)’s prohibition as to felons,
both violent and non-violent. See United States v. Phillips,
827 F.3d 1171, 1175–76 (9th Cir. 2016) (upholding
§ 922(g)(1)’s lifetime ban as applied to someone convicted of
the “non-violent” felony of misprision).
In sum, we hold that § 922(g)(4)’s prohibition on those
who have been involuntarily committed to a mental
institution is a reasonable fit for the important goal of
reducing gun violence. The district court therefore correctly
granted the government’s motion to dismiss. Because the
factual allegations in the proposed amended complaint do not
affect our analysis, the district court correctly denied, as
futile, Plaintiff’s motion for leave to amend the complaint.

11
As applied to Plaintiff, a state court found him dangerous at least
once, and possibly three times. See supra, note 2.

Appendix - 041

MAI V. UNITED STATES

29

CONCLUSION
The federal prohibition on Plaintiff’s possession of
firearms because of his past involuntary commitment
withstands Second Amendment scrutiny. Those who are no
longer mentally ill, but who were committed involuntarily
years ago, unquestionably pose less of a risk of violence now
than when a state court found them to be mentally ill and
dangerous. But scientific evidence reasonably supports the
congressional judgment that they nevertheless still pose an
increased risk of violence. The Second Amendment allows
Congress to further its goal of preventing gun violence by
barring Plaintiff from possessing a firearm.
We emphasize that we reach only Plaintiff’s Second
Amendment challenge and that our holding is limited to
§ 922(g)(4)’s prohibition on those who have “been committed
to a mental institution.” We emphatically do not subscribe to
the notion that “once mentally ill, always so.” We accept, as
we must and as we have no reason to doubt, that Plaintiff is
no longer mentally ill. We decide only that § 922(g)(4)’s
application to him withstands Second Amendment scrutiny.
AFFIRMED.

Appendix - 042

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

DUY T. MAI,

No. 18-36071
Plaintiff-Appellant,
D.C. No.
2:17-cv-00561RAJ

v.
UNITED STATES OF AMERICA;
UNITED STATES DEPARTMENT OF
JUSTICE; BUREAU OF ALCOHOL,
TOBACCO, FIREARMS, AND
EXPLOSIVES; FEDERAL BUREAU OF
INVESTIGATION; WILLIAM P. BARR,
Attorney General; CHRISTOPHER A.
WRAY, as Director of the Federal
Bureau of Investigation; REGINA
LOMBARDO, as Acting Director of
the Bureau of Alcohol, Tobacco,
Firearms, and Explosives,
Defendants-Appellees.

ORDER

Filed September 10, 2020
Before: Susan P. Graber and Ronald M. Gould, Circuit
Judges, and David A. Ezra, * District Judge.

*
The Honorable David A. Ezra, United States District Judge for the
District of Hawaii, sitting by designation.

Appendix - 043

2

MAI V. UNITED STATES
Order;
Dissent by Judge Collins;
Dissent by Judge Bumatay;
Dissent by Judge VanDyke
SUMMARY **

Second Amendment
The panel denied a petition for panel rehearing and
denied on behalf of the court a petition for rehearing en banc.
In the underlying appeal, the panel affirmed the district
court’s dismissal of a 42 U.S.C. § 1983 complaint containing
an as-applied Second Amendment challenge to 18 U.S.C.
§ 922(g)(4), which prohibits plaintiff from possessing
firearms due to his involuntary commitment in 1999 to a
mental institution for more than nine months after a
Washington state court found plaintiff to be both mentally ill
and dangerous. The panel concluded that Section 922(g)(4)’s
continued application to plaintiff did not violate the Second
Amendment.
Dissenting from the denial of rehearing en banc, Judge
Collins stated that the panel’s application of intermediate
scrutiny here was seriously flawed and created a direct split
with the Sixth Circuit. That alone was enough to warrant en
banc review, and Judge Collins therefore joined Part IV.B of
Judge Bumatay’s dissent from the denial of rehearing en
banc. Moreover, Judge Collins stated that he had substantial
doubt that the framework of rules that the court uses to
**
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

Appendix - 044

MAI V. UNITED STATES

3

analyze Second Amendment claims properly construes the
controlling principles set forth in District of Columbia v.
Heller, 554 U.S. 570 (2008).
Dissenting from the denial of rehearing en banc, Judge
Bumatay, joined by Judges VanDyke, and with whom judges
Ikuta, Bade, and Hunsaker join as to Part IV, and with whom
Judges Bennett, Collins, and Bress join as to Part IV.B,
stated that the panel’s opinion justified the disturbing
deprivation of a fundamental right by ignoring the history
and tradition of the Second Amendment and applying illsuited, foreign statistical studies that had no bearing on
plaintiff’s circumstances. The proper inquiry would have
recognized that the lifetime ban imposed by § 922(g)(4) on
plaintiff is unequivocally a complete deprivation of his core
right to home gun ownership, and therefore that the law was
unconstitutional. Judge Bumatay stated that the panel
incorrectly identified intermediate scrutiny as the proper
standard of review and then flubbed its application. By
failing to correct these errors, the Court undermined its
Second Amendment jurisprudence and gave an unworthy
judicial imprimatur to the false premise that once mentally
ill, always mentally ill.
Dissenting from the denial of rehearing en banc, Judge
VanDyke, joined by Judge Bumatay, stated that he agreed
with Judge Bumatay’s dissent from the denial of rehearing
en banc and wrote separately because he believes that the
panel should have reconsidered the panel’s circular logic
about who lies at the core of the Second Amendment. Judge
VanDyke stated that the panel’s bootstrapping, class-based
approach to defining those at the “core” of the Second
Amendment was unjust and antithetical to controlling case
law. Judge VanDyke also stated that the court’s intermediate

Appendix - 045

4

MAI V. UNITED STATES

scrutiny jurisprudence is broken, at least as to Second
Amendment claims.

COUNSEL
Vitaliy Kertchen (argued), Tacoma, Washington, for
Plaintiff-Appellant.
Abby C. Wright (argued) and Michael S. Raab, Appellate
Staff; Brian T. Moran, United States Attorney; Joseph H.
Hunt, Assistant Attorney General; Civil Division, United
States Department of Justice, Washington, D.C.; for
Defendants-Appellees.

ORDER
The panel judges have voted to deny Appellant’s petition
for rehearing. Judges Graber and Gould voted to deny the
petition for rehearing en banc, and Judge Ezra recommended
denying the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a vote on
en banc rehearing. The matter failed to receive a majority of
votes of non-recused active judges in favor of en banc
consideration. Fed. R. App. P. 35.
Appellant’s petition for rehearing and petition for
rehearing en banc, filed Docket No. 37, are DENIED.

Appendix - 046

MAI V. UNITED STATES

5

COLLINS, Circuit Judge, dissenting from the denial of
rehearing en banc:
As Judge Bumatay ably explains in Part IV(B) of his
dissent, the panel’s application of intermediate scrutiny here
is seriously flawed and creates a direct split with the Sixth
Circuit. That alone is enough to warrant en banc review, and
I therefore join that section of Judge Bumatay’s dissent.
Moreover, I have substantial doubt that the framework of
rules that this court uses to analyze Second Amendment
claims properly construes the controlling principles set forth
in District of Columbia v. Heller, 554 U.S. 570 (2008), and
granting en banc review in this case would have given us a
welcome opportunity to reexamine that framework. I
respectfully dissent from our failure to rehear this case en
banc.

BUMATAY, Circuit Judge, with whom VANDYKE,
Circuit Judge, joins, with whom IKUTA, BADE, and
HUNSAKER, Circuit Judges, join as to Part IV, and with
whom BENNETT, COLLINS, and BRESS, Circuit Judges,
join as to Part IV.B, dissenting from the denial of rehearing
en banc:
Today, our court advances an extraordinarily sweeping
view of government power. Against the text, history, and
tradition of the Second Amendment, we hold that the
government may forever deprive a person of the individual
right to bear arms—if that person spends even one day
committed involuntarily, even as a juvenile, and no matter
the person’s current mental health soundness. Of course, we
only adopt this view for the Second Amendment. For other,
more fashionable constitutional rights, we would not
countenance such an abridgment.
Appendix - 047

6

MAI V. UNITED STATES

When the Second Amendment was ratified, times were
different. Firearms were ubiquitous and their regulation was
sparse. Firearms were considered essential for defense of
the home and hearth. District of Columbia v. Heller,
554 U.S. 570, 635 (2008). While times have changed, the
Constitution has not. The Second Amendment is not “a
second-class right,” McDonald v. City of Chicago, Ill.,
561 U.S. 742, 780 (2010), so we must continue to uphold the
right it confers against government encroachment. But by
aggrandizing the government’s power here, we improperly
relegate the Second Amendment to “disfavored right” status
yet again. Silvester v. Becerra, 138 S. Ct. 945 (2018)
(Thomas, J., dissenting from denial of certiorari).
In doing so, we seemingly treat some people as secondclass citizens—concluding that they don’t deserve the full
complement of fundamental rights. We don’t make that
decision based on any present-day impairments or past
criminal convictions, but, in the case of Duy Mai, for an
involuntary commitment to a mental-health facility more
than 20 years ago when he was just 17 years old. Because
of that brief commitment as a teen, our court lets the federal
government ban Mai—for life—from possessing a firearm.
This, despite a state court finding that Mai is no longer
mentally ill or dangerous. We justify this disturbing
deprivation of a fundamental right by ignoring the history
and tradition of the Second Amendment and applying illsuited, foreign statistical studies that have no bearing on
Mai’s circumstances. By failing to correct our errors here,
we undermine our Second Amendment jurisprudence and
give an unworthy judicial imprimatur to the false premise
that “once mentally ill, always mentally ill.”
I respectfully dissent from the denial of rehearing en
banc.

Appendix - 048

MAI V. UNITED STATES

7

I.
By all accounts, Duy Mai is an American success story.
Mai was born in a Thai refugee camp to a Vietnamese family
and moved to the United States at the age of two. As so
many immigrants have, Mai has flourished in this country.
Overcoming an early language barrier, Mai carved out a
stellar academic and professional career. After starting at a
community college, Mai graduated from the University of
Washington with a 3.7 GPA and a degree in microbiology.
While at the University of Washington, Mai’s studies were
inspired by a desire to help people living with HIV and, in
his spare time, Mai volunteered for environmental and
humanitarian causes. Post-graduation, Mai enrolled at the
University of Southern California, where he focused on
cancer research and received a master’s in microbiology.
After returning to Washington state, Mai started a job at the
Benaroya Research Institute, concentrating on virology. As
part of his job, he passed an FBI background check allowing
him access to an irradiator. Today, Mai works as an immune
monitoring specialist at the Seattle-based Fred Hutchinson
Cancer Research Center.
Mai is similarly enriched in his home life. While at USC,
Mai met a woman and they now raise eight-year-old twins.
He remains close to his sister and parents and often meets
them for weekend family dinners. He also enjoys wilderness
activities and volunteer work.
Mai has been a productive member of society for nearly
20 years. But like most people, Mai has faced his share of
challenges. At the age of 17, he suffered from depression,
for which he was involuntarily committed to a mental health
hospital for a little over two months total after a Washington
state court determined that he might be a harm to others. But
Appendix - 049

8

MAI V. UNITED STATES

since Mai’s commitment order expired in August 2000, he
has not been re-committed and his medical record shows no
reoccurrence of serious mental illness. He has no criminal
history or substance abuse issues.
Under state and federal law, Mai was barred from
possessing a firearm due to his involuntary commitment. In
2014, Mai successfully petitioned the State of Washington
to remove the state-law barrier. See Wash. Rev. Code
§ 9.41.047(3)(c)(iii). Mai submitted his medical history
showing that he’s been free of depression since at least 2010
and that, based on the opinions of multiple psychologists, he
is not considered a significant risk of suicide or harm to
others. Based on this evidence and declarations from his
friends and family, the Washington court agreed that Mai
doesn’t present a substantial danger to himself or to the
public and that the symptoms that led to his commitment are
not reasonably likely to reoccur. Thus, today, under state
law, Mai’s right to possess a firearm has been fully restored.
Mai’s final hurdle is federal law. It prohibits an
individual who has been “committed to a mental institution”
from possessing a firearm. 18 U.S.C. § 922(g)(4). Mai
brought an as-applied challenge to § 922(g)(4) and sought
declaratory and injunctive relief declaring him eligible to
possess a firearm under federal law and the Constitution.
The district court granted the government’s motion to
dismiss. Mai v. United States, No. C17-0561 RAJ, 2018 WL
784582, at *6 (W.D. Wash. Feb. 8, 2018). Applying
intermediate scrutiny, the district court rejected Mai’s claim
based on various studies linking mental illness to a
heightened risk of gun violence. Id.
On appeal, this court affirmed. Without bothering itself
with the text, history, or tradition of the Second Amendment,
the court decided that, due to Mai’s brief commitment, he
Appendix - 050

MAI V. UNITED STATES

9

was not a “law-abiding, responsible” citizen and, therefore,
not protected by the Second Amendment’s “core.” See Mai
v. United States, 952 F.3d 1106, 1115 (9th Cir. 2020). In so
ruling, the court compared Mai’s past commitment to a
conviction for domestic violence. Id. The court also
concluded that Washington’s adjudication of his mental
soundness and subsequent restoration of his gun rights—and
Mai’s present-day mental health status—were irrelevant to
the constitutional analysis. Id. at 1115, 1120. Finally, with
the help of studies from Sweden, Australia, Italy, and other
countries, the court ruled that the permanent deprivation of
Mai’s fundamental right cleared intermediate scrutiny. Id.
at 1118–20. We should’ve corrected the layers of errors in
this decision through en banc review.
II.
The Second Amendment guarantees that, “[a] well
regulated Militia, being necessary to the security of a free
State, the right of the people to keep and bear Arms, shall
not be infringed.” U.S. Const. amend. II. “[O]n the basis of
both text and history,” the Second Amendment confers “an
individual right to keep and bear arms.” Heller, 554 U.S.
at 595. This guarantee was considered “among those
fundamental rights necessary to our system of ordered
liberty.” McDonald, 561 U.S. at 778.
Of course, this right is not without its limits. It does not
guarantee a right to keep and carry “any weapon whatsoever
in any manner whatsoever and for whatever purpose.”
Heller, 554 U.S. at 626. The Court noted, for example, that
nothing in Heller should “be taken to cast doubt on
longstanding prohibitions on the possession of firearms by
felons and the mentally ill.” Id. But it recognized that there
would be time to “expound upon the historical justifications
for the exceptions . . . if and when those exceptions come
Appendix - 051

10

MAI V. UNITED STATES

before” the Court. Id. at 635. Heller, in the meantime,
observed that these “longstanding” prohibitions were
“presumptively lawful regulatory measures.” Id. at 627
n.26.
Heller provided us the roadmap for Second Amendment
claims. The Court looked to the Amendment’s words,
Founding-era thinkers, and early court decisions to examine
the scope of the Second Amendment right. Heller, thus,
showed us exactly what to look at: the text, history, and
tradition. Id. at 605, 625, 635. Importantly, the Court
warned that the Second Amendment was not subject to a
“freestanding ‘interest-balancing’ approach.” Id. at 634.
The Court observed that the “very enumeration of the right
takes out of the hands of government—even the Third
Branch of Government—the power to decide on a case-bycase basis whether the right is really worth insisting upon.”
Id. Accordingly, Heller squarely rejected the view that “the
scope of the Second Amendment right should be determined
by judicial interest balancing.” McDonald, 561 U.S. at 785.
Yet judicial interest balancing is exactly what our court
does. Following Heller, our circuit, like many others,
adopted a two-step test to adjudicate Second Amendment
claims. First, we ask whether the statute at issue “burdens
conduct protected by the Second Amendment[.]” United
States v. Chovan, 735 F.3d 1127, 1136 (9th Cir. 2013). We
decide this “based on a ‘historical understanding of the scope
of the [Second Amendment] right[.]’” Jackson v. City &
Cty. of San Francisco, 746 F.3d 953, 960 (9th Cir. 2014)
(quoting Heller, 554 U.S. at 625). Second, having
determined that the law burdens protected Second
Amendment activity, we select the appropriate level of
scrutiny based on our assessment of “(1) how close the law
comes to the core of the Second Amendment right and

Appendix - 052

MAI V. UNITED STATES

11

(2) the severity of the law’s burden on the right.” Chovan,
735 F.3d at 1138 (simplified).
Judges across this country have questioned whether
Chovan-type tests are consistent with Heller’s command to
follow the text, history, and tradition in evaluating the scope
of the Second Amendment. See, e.g., United States v.
McGinnis, 956 F.3d 747, 762 (5th Cir. 2020) (Duncan, J.,
concurring) (encouraging the replacement of the Fifth
Circuit’s two-step test in favor of Heller’s text and history
mandate); Ass’n of N.J. Rifle & Pistol Clubs, Inc. v. Attorney
Gen. New Jersey, 910 F.3d 106, 127 (3d Cir. 2018) (Bibas,
J., dissenting) (arguing that Heller did not set up tiers of
scrutiny with respect to regulations affecting the Second
Amendment); Mance v. Sessions, 896 F.3d 390, 398 (5th Cir.
2018) (Ho, J., dissenting) (explaining that Heller instructs
that fundamental constitutional rights are enshrined with the
scope they were understood to have at the Founding); Tyler
v. Hillsdale Cty. Sheriff’s Dep’t, 837 F.3d 678, 702 (6th Cir.
2016) (Batchelder, J., concurring) (encouraging the
replacement of the Sixth Circuit’s two-step test in favor of a
test that, as required by Heller and McDonald, looks to
history and tradition); id. at 710 (Sutton, J., concurring)
(arguing that history and tradition should inform the scope
of the Second Amendment rather than tiers of scrutiny);
Ezell v. City of Chicago, 651 F.3d 684, 701–02 (7th Cir.
2011) (Sykes, J.) (explaining that the scope of the Second
Amendment right requires a historical inquiry into original
meaning and does not leave room for interest-balancing);
Heller v. District of Columbia, 670 F.3d 1244, 1271 (D.C.
Cir. 2011) (Kavanaugh, J., dissenting) (“Heller and
McDonald leave little doubt that courts are to assess gun
bans and regulations based on text, history, and tradition, not
by a balancing test such as strict or intermediate scrutiny.”);
see also N.Y. State Rifle & Pistol Ass’n, Inc. v. City of New
Appendix - 053

12

MAI V. UNITED STATES

York, 140 S. Ct. 1525, 1544 (2020) (Alito, J., dissenting)
(“We are told that the mode of review in this case is
representative of the way Heller has been treated in the lower
courts. If that is true, there is cause for concern.”).
Indeed, when this court first adopted the two-step test,
Judge Bea rightfully questioned whether applying tiers of
scrutiny to a Second Amendment right was consistent with
Heller. Chovan, 735 F.3d at 1143 (Bea, J., concurring). As
Judge Bea noted, “[u]nitary tests such as strict scrutiny,
intermediate scrutiny, undue burden, and the like don’t make
sense . . . in the Second Amendment context because the
language of Heller seems to foreclose scrutiny analysis.” Id.
(quoting Eugene Volokh, Implementing the Right to Keep
and Bear Arms for Self-Defense: An Analytical Framework
and a Research Agenda, 56 UCLA L. Rev. 1443, 1443,
1461–73 (2009)) (simplified). Nevertheless, since Chovan
didn’t challenge the application of an interest-balancing test,
Judge Bea considered the question waived. Id.
I share these concerns. It is difficult to square the type
of means-ends weighing of a government regulation inherent
in the tiers-of-scrutiny analysis with Heller’s directive that a
core constitutional protection should not be subjected to a
“freestanding ‘interest-balancing’ approach.”
Heller,
554 U.S. at 634. In fact, such an analysis is difficult to
square with the interpretation of most constitutional rights.
As Justice Scalia wrote, “[a] constitutional guarantee subject
to future judges’ assessments of its usefulness is no
constitutional guarantee at all.” Id. After all, “[t]he People,
through ratification, have already weighed the policy
tradeoffs that constitutional rights entail.” Luis v. United
States, 136 S. Ct. 1083, 1101 (2016) (Thomas, J.,
concurring). Our duty as unelected and unaccountable
judges is to defer to the view of the people who ratified the

Appendix - 054

MAI V. UNITED STATES

13

Second Amendment, which is itself the “very product of an
interest balancing by the people.” Heller, 554 U.S. at 635.
By ignoring the balance already struck by the people, and
instead subjecting enumerated rights, like the Second
Amendment, to our own judicial balancing, “we do violence
to the [constitutional] design.” Crawford v. Washington,
541 U.S. 36, 67–68 (2004). Perhaps, this is why “[t]he
Constitution does not prescribe tiers of scrutiny.” Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292, 2327 (2016)
(Thomas, J., dissenting).
If operating on a clean slate, I would hew to Heller’s and
McDonald’s fidelity to the Second Amendment’s history,
tradition, and text. The precise contours of such a review
should be subject to further refinement; but we might, as
Justice Scalia suggested in Heller itself, look to the original
meaning of the First Amendment. See Heller, 554 U.S. at
635 (suggesting categorical exceptions to the First
Amendment as recognized at the Founding, such as
obscenity, libel, and disclosure of state secrets); see also
Tyler, 837 F.3d at 712 (Sutton, J., concurring) (opining that
“Heller creates an on-off switch to the right to bear arms”).
Under this view, a law may only constitutionally prohibit the
core right to keep arms in the home for self-defense if the
prohibition falls within an exception understood to be
outside of the Amendment’s scope at the time of the
Founding.
As the following section shows, when viewed under the
original understanding of the Second Amendment,
§ 922(g)(4)’s application to Mai cannot pass muster.
III.
In the Founding era, little regulation surrounded the core
right of gun ownership for self-defense of the home. As
Appendix - 055

14

MAI V. UNITED STATES

recognized by Heller, the Founders understood the “[t]he
right of self defence” as “the first law of nature” and “the
true palladium of liberty[.]” Heller, 554 U.S. at 606 (quoting
1 St. George Tucker, Blackstone’s Commentaries 300
(1803)). William Rawle, a constitutional scholar and George
Washington’s pick for Attorney General, noted that “[n]o
clause in the Constitution could by any rule of construction
be conceived to give to congress a power to disarm the
people. . . . But if in any blind pursuit of inordinate power,
[congress] should attempt it, [the Second] amendment may
be appealed to[.]” William Rawle, A View of the
Constitution of the United States 125–26 (2d. ed 1829).
When proposing a model constitution for Virginia in 1776,
Jefferson included within the document the explicit
guarantee that “[n]o free man shall be debarred the use of
arms in his own lands.” The Jefferson Cyclopedia 51 (Foley
ed., reissued 1967).
Historical regulations of the right to bear arms focused
more on how people used weapons—not who could own
them. For example, in 1840, the Alabama Supreme Court
upheld a ban on the secret carrying of guns and knives. State
v. Reid, 1 Ala. 612, 614–15, 622 (1840); see also Aymette v.
State, 21 Tenn. 154 (1840) (upholding a statute making the
carrying of a concealed weapon a crime); State v. Chandler,
5 La. Ann. 489, 489–90 (1850) (same). In 1846, the
Supreme Court of Georgia noted that at the time of the
Founding there was a distinction between “a law prohibiting
the exercise of the right [to bear arms], and a law merely
regulating the manner of exercising that right.” Nunn v.
State, 1 Ga. 243, 247 (1846). Consequently, a state
legislature could ban the concealed-carry of a gun, so long
as the ban did not infringe upon the “natural right of selfdefence, or of [the] constitutional right to keep and bear
arms.” Id. at 251.
Appendix - 056

MAI V. UNITED STATES

15

Indeed, the first decision addressing a firearms
regulation based on the condition of a person (rather than the
manner of carrying) did not arise until 1886. See C. Kevin
Marshall, Why Can’t Martha Stewart Have A Gun?,
32 Harv. J.L. & Pub. Pol’y 695, 711 (2009) (citing State v.
Shelby, 2 S.W. 468, 469 (Mo. 1886)) (hereinafter,
“Martha”). In Shelby, the Supreme Court of Missouri
upheld a restriction on the carrying of a deadly weapon while
intoxicated. 2 S.W. at 469. Similarly, late 19th century laws
in Michigan and the District of Columbia restricted weapons
ownership for minors. See Martha at 712 n.93. But as a
Texas state court explained, the state may have “the power
by law to regulate the wearing of arms, with a view to
prevent crime, but it has not the power to enact a law the
violation of which will work a forfeiture of defendant’s
arms.” Jennings v. State, 5 Tex. Ct. App. 298, 300 (1878)
(striking down a law requiring forfeiture of guns used during
a crime under the state constitution).
It should come as no surprise, then, that scholars have
“search[ed] in vain through eighteenth-century records to
find any laws specifically excluding the mentally ill from
firearms ownership.” Carlton F.W. Larson, Four Exceptions
in Search of a Theory: District of Columbia v. Heller and
Judicial Ipse Dixit, 60 Hastings L.J. 1371, 1376 (2009).
Such laws would be highly unusual in a context where
regulations focused on use rather than ownership. Not until
1930 do we see laws specifically touching on gun ownership
and mental health, after the ABA-approved Uniform
Firearms Act prohibited delivery of a pistol to any person of
“unsound” mind. Id. at 1376 (quoting Handbook of the
National Conference of Commissioners on Uniform State
Laws and Proceedings of the Fortieth Annual Conference
563 (1930)). The Act, first drafted in 1926, sought to
promote uniform state laws on firearms. Legislation, The
Appendix - 057

16

MAI V. UNITED STATES

Uniform Firearms Act, 18 Va. L. Rev. 904, 904–05 (1932).
It was adopted by Pennsylvania in 1931, id. at 905 n.9, and
other states passed similar laws in the following decades,
see, e.g., 1965 N.Y. Laws 2343, 2472 (codified at N.Y. Penal
Law §400.00.1 (McKinney 2008)). The statute at issue here,
§ 922(g)(4), was not enacted until 1968. Gun Control Act of
1968, Pub. L. No. 90-618, 82 Stat. 1213, 1220.
Given the paucity of Founding-era laws specifically
prohibiting gun ownership by the mentally ill, we are better
served by exploring the dominant thinking on mental illness
in that period. On this, the evidence is clear: temporary
mental illness didn’t lead to a permanent deprivation of
rights.
Influential philosophers of the day understood that rights
attach with the attainment of “reason” and, correspondingly,
the loss of rights persisted only through the loss of reason.
See Tyler, 837 F.3d at 705–06 (Batchelder, J., concurring)
(citing 1 Jean-Jacques Burlamaqui, The Principles of
Natural and Politic Law 82 (1747); John Locke, Two
Treatises of Government (1691), reprinted in 4 John Locke,
The Works of John Locke 207, 339, 342 (12th ed. 1824);
1 Frederick Pollock & Frederic William Maitland, The
History of English Law Before the Time of Edward I 507–08
(1898)). This understanding accorded with a deeply rooted
common law tradition recognizing that mental illness was
not a permanent condition. See id. at 707–14 (Sutton, J.,
concurring) (citing 1 William Blackstone, Commentaries
*304–05; Anthony Highmore, A Treatise on the Law of
Idiocy and Lunacy 104 (1807)). 1 Thus, an “insane” person
1

For example, in 1689, a Virginia court ordered the confinement of
John Stock, who kept “running about the neighborhood day and night in
sad Distracted Condition to the great Disturbance of the people” to

Appendix - 058

MAI V. UNITED STATES

17

was one who “by disease, grief, or other accident hath lost
the use of his reason.” 1 William Blackstone, Commentaries
*304. But “the law always imagines, that the[] accidental
misfortunes [that caused the lunacy] may be removed” and
at that point the person’s rights restored. Id. at *304–05; see
1 Frederick Pollock & Frederic William Maitland, The
History of English Law Before the Time of Edward I 507–08
(1898); see also Anthony Highmore, A Treatise on the Law
of Idiocy and Lunacy 73 (1807) (“[A] lunatic [was] never to
be looked upon as irrecoverable.”).
These views on the mentally ill were reflected in
historical practices and laws. Even as Virginia sought to
ratify its constitution with a limitation on the civil rights of
“lunatics,” such limitation was only “during their state of
insanity.”
1 St. George Tucker, Blackstone’s
Commentaries: With Notes of Reference, to the Constitution
and Laws, of the Federal Government of the United States;
and of the Commonwealth of Virginia 145 (1803). Virginia
recognized that “an[c]ient law” mandated that the insane
should recover their rights when “they recovered their
senses.” Id. For example, even if a former “lunatic[]” had
his property taken, he was free to petition a tribunal to
establish that “he was now restored to his Understanding” in
order to re-claim the property. Charles Viner, A General
Abridgment of Law and Equity 138 (1741). And while
judicial officials were authorized to “lock up” “lunatics” or
“other individuals with dangerous mental impairments”
(thereby depriving them of all rights), they were “locked up
only so long as such lunacy or disorder shall continue, and
no longer.” Henry Care, English Liberties, or the Free- born
prevent “his doeing any further Mischiefe.” Gerald N. Grob, Mad
Among Us 16 (1994). But Stock was to be confined only “until hee bee
in a better condition to Governe himself.” Id.

Appendix - 059

18

MAI V. UNITED STATES

Subject’s Inheritance 329 (6th ed. 1774). Similarly, the
statute of limitations affecting a claimed property right
would not run against a mentally ill person until the
“removal of his disability and knowledge of the existence
of” such right. See Dicken v. Johnson, 7 Ga. 484, 494
(1849).
From this historical record a clear picture emerges:
mental illness was considered a temporary ailment that only
justified a temporary deprivation of rights. At the time of
the Founding, the idea that the formerly mentally ill were
permanently deprived of full standing in the community was
nowhere to be found. Thus, § 922(g)(4)’s permanent
prohibition on those “formerly committed to a mental
institution” patently burdens the Second Amendment right
of an individual, like Mai, who has been adjudicated to be
no longer mentally ill and whose commitment was long ago.
Heller’s observations about “presumptively lawful
regulatory measures” does not change this analysis. See
United States v. Torres, 911 F.3d 1253, 1262 (9th Cir. 2019).
Heller’s reference to firearm prohibitions for the “mentally
ill” as being “presumptively lawful,” 554 U.S. at 626, 627
n.26, apply to those who are presently mentally ill. “[A]
good rule of thumb for reading [Court] decisions is that what
they say and what they mean are one and the same.” Mathis
v. United States, 136 S. Ct. 2243, 2254 (2016). As such, we
view these categories as “well-defined and narrowly
limited.” Jackson, 746 F.3d at 960 (quoting Brown v. Entm’t
Merchants Ass’n, 564 U.S. 786, 791 (2011)). Accordingly,
nothing in these categories contravenes the historical
evidence that mental illness was considered a temporary
status with no lifelong legal consequences. Because Mai is

Appendix - 060

MAI V. UNITED STATES

19

not currently mentally ill, he doesn’t belong in that
“presumptive” category. 2
With no historical support for this type of permanent
restriction, or even an analogous restriction, § 922(g)(4) as
applied to Mai violates the Second Amendment’s command
that “the right of the people to keep and bear Arms, shall not
be infringed.” U.S. Const. amend. II. Accordingly, we
should have said as much and reversed the district court’s
decision.
IV.
As I have shown, § 922(g)(4)’s application to Mai has no
basis in the text, tradition, and history of the Second
Amendment. But until our court agrees to apply such a test
to Second Amendment claims under en banc review or the
Court provides us with further guidance, we remain bound
by the Chovan test. But even under that test, the court still
got it wrong. The court first incorrectly identified
intermediate scrutiny as the proper standard of review and
then flubbed its application. These errors were further
reason to revisit this case.
A.
As discussed, Chovan calls for a two-step process. First,
we determine if the law “burdens conduct protected by the
Second Amendment,” Chovan, 735 F.3d at 1136, “based on
a historical understanding of the scope of the [Second
2

As the Sixth Circuit held, “Heller’s presumption of lawfulness
should not be used to enshrine a permanent stigma on anyone who has
ever been committed to a mental institution for whatever reason.” Tyler,
837 F.3d at 688. To do so “would amount to a judicial endorsement of
Congress’s power to declare, ‘Once mentally ill, always so.’” Id.

Appendix - 061

20

MAI V. UNITED STATES

Amendment] right[.]” Jackson, 746 F.3d at 960 (9th Cir.
2014) (simplified). Second, we decide what level of scrutiny
applies based on our assessment of “(1) how close the law
comes to the core of the Second Amendment right and
(2) the severity of the law’s burden on the right.” Chovan,
735 F.3d at 1138 (simplified). Depending on the answers to
these questions, we determine our review on a sliding scale
ranging from intermediate scrutiny to per se
unconstitutionality. See Silvester v. Harris, 843 F.3d 816,
821 (9th Cir. 2016). A law, like the complete handgun ban
examined in Heller, that imposes “such a severe restriction”
on the core Second Amendment right that “it amounts to a
destruction of [that] right” is per se unconstitutional. See
Bauer v. Becerra, 858 F.3d 1216, 1222 (9th Cir. 2017)
(simplified). A “law that implicates the core of the Second
Amendment right and severely burdens that right”—without
totally destroying it, like a ban on large-capacity
magazines—“warrants strict scrutiny.” Duncan v. Becerra,
No. 19-55376, 2020 WL 4730668, at *22 (9th Cir. Aug. 14,
2020) (quoting Silvester, 843 F.3d at 821, 827). For all other
laws that do not implicate the core Second Amendment right
or do not substantially burden that right, like a short waiting
period to purchase firearms, we apply intermediate scrutiny.
Torres, 911 F.3d at 1262 (citing Jackson, 746 F.3d at 961);
Silvester, 843 F.3d at 823.
The court erred at both steps of the Chovan analysis. At
step one, the court assumed, rather than decided, that
§ 922(g)(4) as applied to Mai burdens conduct protected by
the Second Amendment right. Mai, 952 F.3d at 1114. But
by dodging the question of “which perspective better
comports with the historical evidence,” id., the court
sidesteps Heller’s command to review the text, history, and
tradition of the Amendment. Heller, 554 U.S. at 605, 625,
635. But when we suspect that a question may implicate a
Appendix - 062

MAI V. UNITED STATES

21

“core” constitutional concern, “we should do more before
tossing it aside.” Fazaga v. FBI, 965 F.3d 1015, 1079 (9th
Cir. 2020) (Bumatay, J., dissenting). Furthermore, when
undertaking a constitutional analysis, “[w]e should resolve
questions about the scope of [our] precedents in light of and
in the direction of the constitutional text and constitutional
history.” Edmo v. Corizon, Inc., 949 F.3d 489, 506 (9th Cir.
2020) (Bumatay, J., dissenting) (quoting Free Enter. Fund
v. Public Co. Accounting Oversight Bd., 537 F.3d 667, 698
(D.C. Cir. 2008) (Kavanaugh, J., dissenting)).
By punting the analysis of the historical scope of the
Second Amendment and its impact on the formerly mentally
ill, we let false assumptions cloud our judgment and distort
our precedent even further from the original understanding
of the Constitution. Had we done the requisite analysis, we
would have recognized that this law not only burdens
Second Amendment-protected conduct, but that it also
strikes at the core right protected by its guarantee. Instead,
our court skips this important step—an omission that infects
the rest of the Chovan analysis.
The court erred again at Chovan step two, by incorrectly
identifying intermediate scrutiny as the proper standard. 3 As
we have recently explained, step two of Chovan “is a simple
inquiry: if a law regulating arms adversely affects a lawabiding citizen’s right of defense of hearth and home, that
law strikes at the core Second Amendment right.” Duncan,
2020 WL 4730668, at *12; Jackson, 746 F.3d at 961
3

Without reference to our precedent, Mai apparently agreed that
intermediate scrutiny should apply to his case. See Mai, 952 F.3d
at 1115. Nevertheless, “we are not bound to decide a matter of
constitutional law based on a concession.” Colo. Republican Fed.
Campaign Comm. v. Fed. Election Comm’n, 518 U.S. 604, 622 (1996).

Appendix - 063

22

MAI V. UNITED STATES

(recognizing that laws which regulate only the “manner in
which persons may exercise their Second Amendment
rights” are less burdensome than those which “bar firearm
possession completely”) (quoting Chovan, 735 F.3d
at 1138); see also Heller, 554 U.S. at 635 (“[W]hatever else
it leaves to future evaluation, [the Second Amendment]
surely elevates above all other interests the right of lawabiding, responsible citizens to use arms in defense of hearth
and home.”).
Under this framework, the application of § 922(g)(4) to
Mai strikes at the core Second Amendment right—and guts
it. Indeed, § 922(g)(4) completely deprives Mai of the
ability to possess a firearm, even within the home, where
protections are “at their zenith.” Duncan, 2020 WL
4730668, at *12 (quoting Kachalsky v. Cty. of Westchester,
701 F.3d 81, 89 (2d Cir. 2012)). In any other context, laws
that burden the core of a fundamental right are invariably
analyzed under heightened scrutiny—e.g., restrictions on the
“content” of speech rarely survive strict scrutiny, e.g., Brown
v. Entm’t Merchs. Ass’n, 564 U.S. 786, 799 (2011), nor do
laws that restrict “core” political speech, see, e.g., McIntyre
v. Ohio Elections Comm’n, 514 U.S. 334, 347 (1995);
Buckley v. Am. Constitutional Law Found., Inc., 525 U.S.
182, 207 (1999) (Thomas, J., concurring). We should not
treat the Second Amendment any different. Instead, we
should have recognized that § 922(g)(4) effects a complete
deprivation of Mai’s core Second Amendment right and held
the law unconstitutional as applied to him.
At a minimum, the law is a “substantial burden” on the
core Second Amendment right, warranting the application of
strict scrutiny. Duncan, 2020 WL 4730668, at *22. But the
court evaded any form of strict scrutiny, despite admitting
that § 922(g)(4)’s “lifetime ban” on Mai’s Second

Appendix - 064

MAI V. UNITED STATES

23

Amendment right was “quite substantial,” by minimizing the
law’s burden as falling on only a “narrow class” of
individuals. Mai, 952 F.3d at 1115. In doing so, the court
seemingly pulls new doctrine out of its hat and magically
transforms a fundamental right that belongs to an individual,
Heller, 554 U.S. at 592, into one that is class-based. Rather
than face the total and permanent deprivation of the core
Second Amendment right for Mai (and the class of people
like him), the court refocused the inquiry on the size of the
class. And ta-da!, the court holds, intermediate scrutiny
applies. Like most magicians, the court refused to explain
its act. 4 Because the law deprives only a “narrow class” of
individuals their Second Amendment right, ipse dixit, it is
analyzed only under intermediate scrutiny. Such reasoning
is even more perplexing given that heightened scrutiny was
originally announced as a method to protect the rights of
“discrete and insular minorities.” See United States v.
Carolene Prods. Co., 304 U.S. 144, 152 n.4 (1938). Today,
according to the court, the fact that Mai belongs to a “narrow
class” is, paradoxically, the very reason to lower the level of
scrutiny applied to him. We should have corrected this
jurisprudential sleight of hand.
Next, the court justified its decision to apply
intermediate scrutiny by refusing to recognize Mai as a “lawabiding, responsible citizen.” But its refusal to do so is
baffling. Besides a brief involuntary commitment as a
youth, nothing in the record shows that Mai is anything but
4

The court cites to Tyler for its analysis, Mai, 952 F.3d at 1115, but
Tyler provides no reasoning for the class-based burden approach and
only cites to a Tenth Circuit case for that proposition. Tyler, 837 F.3d
at 691 (citing United States v. Reese, 627 F.3d 792, 802 (10th Cir.
2010)). In turn, the Tenth Circuit case merely announces the proposition
with no accompanying analysis. Reese, 627 F.3d at 792. So the court
falls into a rabbit hole within rabbit holes to justify its conclusion.

Appendix - 065

24

MAI V. UNITED STATES

a “law-abiding, responsible citizen.” Instead, it shows that
Mai is a person of advanced education and demonstrated
professional achievement, with strong community and
family support and no history of criminal activity or
substance abuse.
Yes, he suffered from significant
depression as a teen, but recent psychological evaluators and
Washington state have concluded he is not currently
mentally ill and presents no risk of violence to others or
himself. Nor is that reasonably likely to change in the future.
Washington, in turn, restored his right to possess firearms
under state law.
But this court decided it knows better, holding that,
“[r]egardless of [Mai’s] present-day peaceableness,” Mai is
not a “law-abiding, responsible citizen” because of his brief
commitment 20 years ago. Mai, 952 F.3d at 1115. The
court, with no analysis, held that “[t]he same logic” used to
prohibit a domestic-violence convict from possessing a
firearm applied here—to a person like Mai. Id. (citing
Chovan, 735 F.3d at 1138). 5 But a criminal conviction is not
the same as mental illness. Unless pardoned, expunged, or
set aside, a conviction always remains a conviction under the
law. See, e.g., 18 U.S.C. § 921(a)(20)(B), (33)(B)(ii). And,
5

In Chovan, we found § 922(g)(9)’s prohibition on firearm
possession by domestic-violence misdemeanants didn’t implicate the
“core” Second Amendment protection because the law’s burden fell only
on “individuals with criminal convictions.” Chovan, F.3d at 1138. The
court doesn’t justify why mental illness fits into the same category.
Indeed, while civil commitment often results from threats of physical
harm, some states allow civil commitment where no risk of physical
harm is present at all. See, e.g., Haw. Rev. Stat. § 334-1 (“substantial”
emotional injury on others); Iowa Code § 229.1(20) (“serious” emotional
injury on others); Kan. Stat. Ann. § 59-2946(f)(1)–(3) (property
damage); La. Stat. Ann. §§ 28:55(E)(1), 28:2(10) (substance abuse);
N.H. Rev. Stat. Ann. §§ 135-C:34, 135-C:2(X) (noncontinuous alcohol
abuse).

Appendix - 066

MAI V. UNITED STATES

25

at least for felony convictions, there is historical support for
a law resulting in forfeiture of property and rights. See
2 William Blackstone, Commentaries *377 (describing the
possible punishments of serious crime as including
“confiscation, by forfeiture of lands, or moveables, or both,
or of the profits of lands for life: others induce a disability,
of holding offices or employments, being heirs, executors,
and the like”); see also United States v. McCane, 573 F.3d
1037, 1049 (10th Cir. 2009) (Tymkovich, J., concurring)
(“[T]he application of § 922(g) to a violent felon . . . would
appear appropriate under any Second Amendment reading.
After all, felons lose out on fundamental rights such as
voting and serving on juries, and face discrimination that
need only survive rational basis review.”). As we have said,
“felons are categorically different from the individuals who
have a fundamental right to bear arms.” United States v.
Vongxay, 594 F.3d 1111, 1115 (9th Cir. 2010).
So, while the law may hold that “once a convict, always
a convict,” tradition, history, and elementary psychology
teach us that “once mentally ill, not always mentally ill.”
This is the distinction that the court ignores. Indeed, under
the court’s extreme reading of the law, any person falls
outside of the Constitution’s core protection if that person
spends even one day in commitment—even as a youth!
Nothing in the text, history, and tradition of Constitution
supports this view. The proper inquiry would have
recognized that the lifetime ban imposed by § 922(g)(4) on
Mai is unequivocally a complete deprivation of his core right
to home gun ownership.
As such, the law is
unconstitutional.
B.
Even accepting the court’s error and analyzing Mai’s
claim under intermediate scrutiny, we still got it wrong.
Appendix - 067

26

MAI V. UNITED STATES

To satisfy intermediate scrutiny, the government’s
statutory objective must be “significant, substantial, or
important,” and there must be a “reasonable fit” between the
challenged law and that objective. Mai, 952 F.3d at 1115
(quoting Silvester, 843 F.3d at 821–22). 6 The burden of
satisfying intermediate scrutiny is demanding and rests
entirely on the government. United States v. Virginia,
518 U.S. 515, 533 (1996). It doesn’t require the court to
approve “shoddy data or reasoning.” See City of Los Angeles
v. Alameda Books, Inc., 535 U.S. 425, 438 (2002). We
demand “consistency and substantiality” in the evidence the
government uses to establish a sufficient fit between its
means and ends. Lalli v. Lalli, 439 U.S. 259, 274 (1978)
(quoting Mathews v. Lucas, 427 U.S. 495, 515 (1976)). The
proffer of “loose-fitting generalities” in the form of
statistical data is insufficient to clear intermediate scrutiny.
See Craig v. Boren, 429 U.S. 190, 191–92, 202–04, 209
(1976) (rejecting to the use of “broad sociological
propositions” to particularized applications under
heightened scrutiny).
Here, the court disclaims any adherence to the false
assumption that “once mentally ill, always mentally ill.”
The court also fully professes to believe in Mai’s current
mental health. But, once we acknowledge that Mai has no
present-day mental health impairment, what justifies the
deprivation of his fundamental right? Apparently, according
to the court, Swedish statistical studies.
6

As Judge VanDyke traces in his dissent, our court transplanted the
“reasonable fit” standard from the First Amendment context, where it
was used to evaluate neutral, incidental burdens on speech. VanDyke,
J., dissenting at 46. I join Judge VanDyke in questioning whether this
standard inappropriately waters down the exacting scrutiny required to
review the complete deprivation of a fundamental right.

Appendix - 068

MAI V. UNITED STATES

27

In justifying the “reasonable fit” between the
government’s objective here, the court relies on several illsuited studies, many compiling data from foreign countries.
One of the primary studies relied on by the court analyzed
suicide risk after release from involuntary commitment, but
offered no information about suicide risk for someone like
Mai—20 years past his commitment and free of mental
health issues. 7 See also Tyler, 837 F.3d at 696 (finding this
same study insufficient to “explain why a lifetime ban [on
gun possession] is reasonably necessary”). The court admits
the inapplicability of this study to someone like Mai. See
Mai, 952 F.3d at 1121. But undeterred, the court offers
additional studies, perhaps even more inapplicable, such as
a study focused on patients from Sweden, 8 “community
care” patients from Italy and Australia, 9 an “[o]ut-patients”

7

Of the patients considered, 98% were considered for only a year
following their commitment, and the remaining 2% were studied from
2.5 to 8.5 years post-commitment. E. Clare Harris & Brian Barraclough,
Suicide as an Outcome for Mental Disorders: A Meta-Analysis, 170 Brit.
J. Psychiatry 205, 219 (1997) (hereinafter “Meta-Analysis”). The study
doesn’t include any research into the suicide risk at 10, 15, and 20 years
out from commitment—even while recognizing that “[s]uicide risk
seems highest at the beginning of treatment and diminishes thereafter.”
Meta-Analysis at 223.
8

In one study of “[p]reviously hospitalised patients,” 80% of the
observations were from Sweden and involved all types of psychiatric
diagnoses, not just depression. See Mai, 953 F.3d at 1118 (citing MetaAnalysis at 220–21); Allgulander C. et al., Risk of Suicide by Psychiatric
Diagnosis in Stockholm County. A Longitudinal Study of 80,970
Psychiatric Inpatients, 241 Eur. Archives Psychiatry Clinical
Neuroscience 323, 324 (1992); Appendix, Figure 1.
9

In this study of “[c]ommunity care patients,” 86% of observations
were patients from Italy and Australia (the United States represented a
mere 4% or three total observations). Mai, 952 F.3d at 1118 (citing

Appendix - 069

28

MAI V. UNITED STATES

study with a meager 34 observations, 10 and another study of
predominately foreign patients (with some U.S. data from
1969). 11
The court offered no reasoned explanation of how a
fundamental right can be contingent on off-point studies
conducted overseas, see Mai, 952 F.3d at 1117–18 (relying
on Meta-Analysis), despite the Supreme Court counseling
against relying on such inapposite data. See Craig, 429 U.S.
at 201.
The court’s application of intermediate scrutiny here
requires more of a rifle’s precision, not a shotgun’s spread.
See Ass’n of N.J. Rifle & Pistol Clubs, Inc., 910 F.3d at 133–
34 (Bibas, J., dissenting) (“Intermediate scrutiny requires
more concrete and specific proof before the government may
restrict any constitutional right, period.”). The panel’s cited
studies fail to meet this standard because none demonstrate
a “continued risk presented by people who were
involuntarily committed many years ago and who have no
history of intervening mental illness, criminal activity, or
substance abuse.” Tyler, 837 F.3d at 699. If we are to accede
to the permanent deprivation of Mai’s fundamental right, we
should, at a minimum, demand evidence sufficiently tailored
to his circumstances. See id. (remanding to the district court

Meta-Analysis at 221); see Appendix, Figure 2. The court doesn’t even
define “community care,” much less its relevance to Mai.
10
Mai, 252 F.3d at 1118 (citing Meta-Analysis at 220–21); see
Appendix, Figure 3.
11
Mai, 952 F.3d at 1118 (citing Meta-Analysis at 221); see
Appendix, Figure 4.

Appendix - 070

MAI V. UNITED STATES

29

to allow the government to present “additional evidence
explaining the necessity of § 922(g)(4)’s lifetime ban”).
V.
Many years ago, judges took a turn as pseudopsychologists and waded into whether a woman’s mental
health may be balanced against her constitutional rights. See
Buck v. Bell, 274 U.S. 200 (1927). That case is generally not
treated kindly today. I fear the court goes down the same
path.
Heller’s endorsement of text, history, and tradition as the
proper lens for evaluating the scope of the Second
Amendment was not accidental.
There, the Court
emphatically disapproved of courts determining on an ad hoc
basis whether certain individuals were undeserving of the
full complement of fundamental rights. Duy Mai deserves
better. Our Constitution deserves better. I respectfully
dissent from the denial of rehearing en banc.

Appendix - 071

30

MAI V. UNITED STATES
APPENDIX
Figure 1

Figure 2

Appendix - 072

MAI V. UNITED STATES
Figure 3

Figure 4

Appendix - 073

31

32

MAI V. UNITED STATES

VANDYKE, Circuit Judge, with whom BUMATAY,
Circuit Judge, joins, dissenting from denial of rehearing en
banc:
In the final paragraph of its opinion rejecting Mai’s
Second Amendment claim, the panel emphasized that “[w]e
emphatically do not subscribe to the notion that ‘once
mentally ill, always so.’” Mai v. United States, 952 F.3d
1106, 1121 (9th Cir. 2020). I believe them. Yet just like the
government’s position in this case, the panel’s decision
inescapably effectuates exactly that ethic. How can this
court purport to be applying “heightened” scrutiny, yet bless
a legal position and practical outcome everyone insists isn’t
true?
The answer is a simple four-letter word: guns. It is hard
to conceive of any other area of the law where, given the
opportunity to apply heightened scrutiny, this court would
countenance for a moment an outcome rooted in the
scientifically indefensible, morally repugnant, and legally
insufficient concept of “once mentally ill, always so.” Mr.
Mai could understandably take personally this court’s
labeling of him as a second-class citizen (more on that
below). But he shouldn’t. Our court cannot really believe
that, just because a currently healthy individual decades ago
suffered from mental illness, they are permanently relegated
to a disfavored status impervious to even heightened
scrutiny. Mr. Mai is not a second-class citizen—not in this
court’s eyes or anyone else’s. He’s just seeking to exercise
a second-class right. He is another innocent casualty of this
court’s demonstrated dislike of things that go bang. Perhaps
Mr. Mai can take faint solace in the fact that, were he seeking
to exercise any other right entitled to heightened scrutiny, he
would no doubt get the judicial review he plainly merits.

Appendix - 074

MAI V. UNITED STATES

33

Mai, and all others who have overcome mental illness,
deserve better than to be permanently designated secondclass citizens, particularly as it relates to their equal
participation in a fundamental right. I therefore agree
entirely with Judge Bumatay’s dissent and write separately
to expound on two of the reasons this case deserved en banc
attention.
First, our en banc court should have reconsidered and
corrected the panel’s circular logic about who lies at the
“core” of the Second Amendment. By lumping individuals
like Mai into overbroad groups that, as a whole, may pose
heightened risks of violence, the panel has effectively given
governments carte blanche to legislate the Second
Amendment away. The panel’s classist approach labels
many law-abiding, responsible citizens like Mai non-lawabiding, irresponsible citizens, outside the protections of the
Second Amendment. No evidence suggests Mai is mentally
ill, yet the panel’s rationale labels him so, for life. The panel
then uses this grouping to lower the applicable level of
scrutiny, which in turn relaxes (or eliminates) the
requirement that a restriction should substantially fit the
government objective. It’s circular. All this, when the
“core” of the Second Amendment in Heller is about
protected conduct—not people.
Second, our intermediate scrutiny jurisprudence is
broken, at least as to Second Amendment claims. We have
appropriated a “reasonable fit” standard from the First
Amendment context, where it was used to evaluate neutral,
incidental burdens on speech. Not only have we pilfered a
test ill-suited to direct burdens on a different fundamental
right, we have further diminished that already too-anemic
test. Our track record on the Second Amendment is quite

Appendix - 075

34

MAI V. UNITED STATES

poor, and the analytical maltreatment exhibited again in this
case only adds to the rap sheet.
I. ASSUMPTIONS, PRESUMPTIONS, AND THE
“CORE” OF THE SECOND AMENDMENT RIGHT
A. The Panel’s Awkward Assumption at Chovan Step 1
The panel sidestepped the difficult task of determining
whether 18 U.S.C. § 922(g)(4) burdens Mai’s Second
Amendment rights (Chovan Step 1) by simply assuming it
did. Mai, 952 F.3d at 1114–15. According to the panel, a
restriction does not burden a Second Amendment right if it
fits a presumptively lawful ban in Heller (felons or the
mentally ill) or regulates conduct outside the scope of the
Second Amendment. Id. at 1114 (referencing Unites States
v. Chovan, 735 F.3d 1127, 1136 (9th Cir. 2013)). Blanketly
banning firearm possession clearly implicates the scope of
the Second Amendment, so, if the panel had decided Mai’s
case at Chovan Step 1, it could only uphold § 922(g)(4) as
applied to Mai by concluding that he is properly included
amongst “the mentally ill.” Faced with either holding that
Mai’s past mental illness rendered him perpetually mentally
ill (once mentally ill, always so) or admitting that Mai had
the same Second Amendment right as any other law-abiding
citizen, the panel punted. Id. at 1115. This “well-trodden”
analytical technique is generally fine, but here the panel
buried the lede in Chovan Step 1 to avoid the awkwardness
of expressly saying up front what it implicitly concluded in
Chovan Step 2, Prong 1: that Mr. Mai’s long-ago mental
illness forever excludes him from the community of “lawabiding, responsible citizens” under the Second Amendment
(i.e., once mentally ill, always so). Chovan, 735 F.3d at
1138.

Appendix - 076

MAI V. UNITED STATES

35

B. After Assuming the Statute Burdens Mai’s Second
Amendment Rights, the Panel Concluded Mai Is
“Well Outside the Core of the Second Amendment.”
Chovan Step 2 is a two-prong inquiry to determine the
appropriate level of scrutiny: (1) how close the law comes to
the core of the Second Amendment and (2) the severity of
the law’s burden on that right. Chovan, 735 F.3d at 1138.
As to the second prong, the panel correctly recognized that
§ 922(g)(4) severely burdens Mai’s Second Amendment
right and amounts to a lifetime ban on firearm ownership.
Mai, 952 F.3d at 1115.
This put all the pressure on the panel’s Prong 2 “core”
analysis. The panel first determined Mai was not a lawabiding, responsible citizen because of his former mental
illness.
Id. (likening Mai to domestic violence
misdemeanants). From this, and despite § 922(g)(4)’s
severe burden on Mai’s Second Amendment rights, the panel
concluded that § 922(g)(4) “falls well outside the core of the
Second Amendment right.” Id. The panel then deemed a
lower level of scrutiny appropriate, because a “lifetime ban”
on the formerly committed “burdens only a narrow class of
individuals who are not at the core of the Second
Amendment.” Id.
The panel believes class-based categorical bans are
permissible under intermediate scrutiny, so long as those
bans target groups that pose a heightened risk of violence.
Id. at 1116. Because some metrics indicate that individuals
recently involuntarily committed are more violent than the
general public, the panel surmises that the firearm ban, as
applied to Mai (who was committed as a juvenile decades

Appendix - 077

36

MAI V. UNITED STATES

ago), survives intermediate scrutiny. 1 Id. at 1116–17. But
this standard abandons any reasonable fit requirement.
Presumably, the panel’s version of “intermediate scrutiny”
would uphold firearm bans as applied to young men, the
poor, or the entire 2008 Florida Gators football team. 2
Ironically, the broader the class, the more likely it is to pass
this standard. Suppose Congress instituted a firearm ban
against anyone who has committed a crime—from
jaywalkers to violent felons.
That “all criminals”
classification would withstand scrutiny under the panel’s
standard because, when lumped together into one group, that
group—as a whole—poses a heightened risk of violence just
because some members of that group do. Whether
committing murder or activating the turn signal too late,
under the panel’s rationale, “all criminals” are no longer lawabiding, responsible citizens entitled to basic Second
Amendment rights.
Of course, this is absurd and circular. Step 1: Congress
bans firearm possession for a broad class of people including
some sub-class therein that poses a heightened risk of
violence. Step 2: Our court says the broad class is outside
“core” of the Second Amendment. Step 3: We say the
1

For the reasons Judge Bumatay ably explains, those metrics’
relevance to Mai’s circumstances is dubious at best, and clearly
insufficient to meet any form of heightened scrutiny with real teeth.
2
As of 2013, 34% of the 2008 Florida Gators football team had been
arrested. Many were charged with violent crimes, including at least one
who was convicted of a notorious murder. See Greg Bishop, Hernandez
Among Many Who Found Trouble at Florida in the Meyer
Years, N.Y. TIMES (July 6, 2013), https://www.nytimes.com/2013/07/0
7/sports/ncaafootball/hernandez-among-many-arrested-at-florida-in-the
-meyer-years.html. But the team was also graced by model citizen Tim
Tebow, who, I’m sure we can all agree, could be trusted to own a firearm
(and probably raise our children).

Appendix - 078

MAI V. UNITED STATES

37

individual in the broad class is also outside the core, even
though no evidence says he belongs to a violent sub-class,
and all the evidence suggests otherwise. Step 4: We lower
the level of scrutiny and relax the “fit” requirement so that a
wildly overbroad prohibition can be deemed “reasonable.”
This bootstrapping approach is an ingenious but insidious
way to render the Second Amendment a paper tiger. See
Chovan, 735 F.3d at 1148 (Bea, J., concurring) (“If … the
terms ‘law-abiding’ and ‘responsible’ are not tied to ‘felons’
and ‘mentally ill,’ how are the lower courts to recognize the
limits of the ‘law-abiding, responsible citizen’ standard?”).
C. The “Core” of the Second Amendment Right has
Nothing to Do with Classes of People.
The panel references Chovan (which quotes from Heller)
for the principle that “[t]he core of the Second Amendment
is ‘the right of law-abiding, responsible citizens to use arms
in defense of hearth and home.’” Id. at 1115 (quoting
Chovan, 735 F.3d at 1138). According to the panel, this
supported its decision to subject different classes of people
to different tiers of scrutiny. Id. But this “core” standard
finds no support in and misrepresents Heller.
Although the panel concludes that certain privileged
classes of people constitute the “core of the Second
Amendment” (while, by extension, other classes like the one
it lumped Mai into don’t), the Heller Court never applied this
test to the right’s holders, but only to its substance. The
word “core” appears only twice in Heller and both times
describes the activity protected by the Second Amendment.
District of Columbia v. Heller, 554 U.S. 570, 630 (2008)
(“the core lawful purpose of self-defense”) (emphasis
added); id. at 634 (reasoning that handgun ownership is the
“core protection” of the Second Amendment) (emphasis
added).
Appendix - 079

38

MAI V. UNITED STATES

Heller never used “core,” or its like, to discuss the
Second Amendment’s application to individuals. But the
panel nonetheless splices language—separated by fifty-four
pages from Heller’s actual individual rights analysis—to
support its claim that the formerly mentally ill lie outside the
core of the Second Amendment. See Mai, 952 F.3d at 1115;
compare Heller, 554 U.S. at 581 (“We move now from the
holder of the right—‘the people’—to the substance of the
right ….”) with id. at 635 (“And whatever else it leaves to
future evaluation, it surely elevates above all other interests
the right of law-abiding, responsible citizens to use arms in
defense of hearth and home.”).
Heller actually cuts against the panel’s supposition. The
Heller Court noted that the six other constitutional
provisions that guarantee rights to “the people” refer
unambiguously to the same class of individuals: namely, “all
members of the political community.” Id. at 580 (First,
Second, Fourth, Ninth, Tenth, and Seventeenth
Amendments). Heller then concluded that “the Second
Amendment right is [likewise] exercised individually and
belongs to all Americans.” Id. at 581 (emphasis added).
Does the panel’s contrary logic mean groups or individuals
may also be placed outside the “core” of other constitutional
rights?
I’m certain this court would say no. The Supreme Court
has repeatedly declined to do so. Instead, it takes an all-ornothing approach to delineate the scope of individuals
included in a constitutional protection and then applies an
appropriate level of scrutiny to the regulatory burden on the
substance of that right, if necessary. See, e.g., Boumediene
v. Bush, 553 U.S. 723, 771 (2008) (holding that enemy
combatants are entitled to the privilege of habeas corpus);
Demore v. Kim, 538 U.S. 510, 531 (2003) (aliens not entitled

Appendix - 080

MAI V. UNITED STATES

39

to bail hearings during removal proceedings under Due
Process Clause); Jones v. Helms, 452 U.S. 412, 419–20
(1981) (convicted felons have no fundamental right to
travel); Richardson v. Ramirez, 418 U.S. 24, 54–56 (1974)
(states can prevent convicted felons from voting). Just this
year, the Supreme Court reaffirmed this approach. See
Agency for Int’l Dev. v. All. for Open Soc’y. Intl., Inc., 140
S. Ct. 2082, 2086 (2020). There, the Court held that “foreign
organizations operating abroad … possess no rights under
the First Amendment.”
Id. at 2087.
The foreign
organizations’ status didn’t dictate the Court’s selected tier
of scrutiny—indeed, scrutiny appears nowhere in the
decision. Id. at 2085–89. On the contrary, the Court’s
decision was categorical: the plaintiffs don’t have First
Amendment rights. Id. at 2087.
Our court, too, has generally refused to apply a Maistyle, second-class citizen “core” analysis to rights
guaranteed to “the People.” See, e.g., Rodriguez v. Swartz,
899 F.3d 719, 730 (9th Cir. 2018) (extending the full
protection of the Fourth Amendment to a Mexican citizen
shot on Mexican soil by American officer on American soil),
cert. granted, judgment vacated, 140 S. Ct. 1258 (2020);
Deorle v. Rutherford, 272 F.3d 1272, 1285 (9th Cir. 2001)
(ruling that mentally disturbed individuals are protected by
the Fourth Amendment right against excessive force); Maag
v. Wessler, 960 F.2d 773, 775 (9th Cir. 1991) (per curiam)
(holding that mentally ill individuals are fully protected by
the Fourth Amendment), as amended on denial of reh’g
(Apr. 1, 1992).
In this case, the panel invents a class scrutiny standard in
order to quietly lump Mai into a class (“the mentally ill”) to
which it wouldn’t explicitly consign him at Chovan Step 1.
It then leverages intermediate scrutiny to allow it to ignore

Appendix - 081

40

MAI V. UNITED STATES

the group’s obvious overbreadth, thereby allowing anyone
who has ever suffered from mental illness to be deprived of
their Second Amendment rights for life, regardless of their
present condition. Once mentally ill, always so. But see
Heller, 554 U.S. at 634–35 (“Constitutional rights are
enshrined with the scope they were understood to have when
the people adopted them, whether or not … future judges
think that scope too broad.”). Consistently applied, this
class-based recharacterization about the “core” of the
Second Amendment would bode ill for our foregoing
scrutiny of laws burdening other fundamental rights. But we
would never allow such subtle and slippery reasoning to so
grievously burden the rights of “the People” protected
elsewhere by the Constitution. This disparate treatment is
unacceptable, even as applied to one of this circuit’s leastfavored constitutional provisions.
By refusing to
acknowledge that it is giving second-class treatment to the
Second Amendment, the panel tragically relegates folks like
Mai to permanent second-class status.
II. LOWERING HEIGHTENED SCRUTINY
Of course, any concerns about the panel’s circular classbased rationale bankrupting other constitutional rights is
probably misplaced. This appears to be a “one-show-only”
phenomenon specially reserved for the Second Amendment.
Particularly in that context, we have watered down the
“reasonable fit” prong of intermediate scrutiny to little more
than rational basis review.
The panel cited circuit precedent when articulating the
reasonable fit standard: “‘the statute simply needs to
promote a substantial government interest that would be
achieved less effectively absent the regulation.’” Mai, 952
F.3d at 1116 (quoting United States v. Torres, 911 F.3d
1253, 1263 (2019)). Whatever kind of fit that requires, it
Appendix - 082

MAI V. UNITED STATES

41

certainly isn’t reasonable. A grossly overbroad regulation
with just a miniscule bit more effectiveness meets that
standard. A law that banned firearm ownership for “young
men” or “anyone who has committed any crime” would meet
that standard. Such a standard is an incomplete and incorrect
tool for measuring regulations that facially burden a
fundamental right.
The panel not only applies this inappropriate standard
(see Section I, above), it applies it inappropriately. The
“reasonable fit” language the panel relied upon was crafted
for use in a specific, and very different, context: facially
neutral regulations that incidentally burden freedom of
speech in a way that is no greater than is essential. It’s
worth exploring how this standard stumbled its way from the
First to the Second Amendment and arrived here.
A. The “Reasonable Fit” Standard Is Born and
Promptly Diluted.
The trail begins at the well-known United States v.
O’Brien, where the Court dealt with a war protester who
burned his draft card. 391 U.S. 367, 369 (1968). O’Brien
argued the prohibition on burning draft cards violated his
freedom of speech, id. at 370, while the government claimed
it needed to ensure the ready accessibility of issued draft
cards. Id. at 378. The Court reasoned:
[W]e think it clear that a government
regulation is sufficiently justified … if it
furthers an important or substantial
governmental interest; if the governmental
interest is unrelated to the suppression of free
expression; and if the incidental restriction
on alleged First Amendment freedoms is no

Appendix - 083

42

MAI V. UNITED STATES
greater than is essential to the furtherance of
that interest.

Id. at 377 (emphasis added). The restriction in O’Brien was
(a) incidental and (b) no greater than was essential to further
an important or substantial government interest. Both
qualifications are critical to the O’Brien test, but subsequent
cases purporting to apply it neglected these qualifications.
In United States v. Albertini, the defendant argued his
First Amendment rights were violated because he was
banned from entering a military base and thereby prevented
from peacefully protesting during an open house on Armed
Forces Day that was generally open to the public. 472 U.S.
675, 677–78 (1985) (the defendant had previously
improperly entered military bases and destroyed government
documents). The Court disagreed: “an incidental burden on
speech is no greater than is essential, and therefore is
permissible under O’Brien, so long as the neutral regulation
promotes a substantial government interest that would be
achieved less effectively absent the regulation.” Id. at 689
(emphasis added). 3
In Ward v. Rock Against Racism, musicians argued the
denial of a permit to perform in a public space due to
repeated past noise violations burdened their First
Amendment rights. 491 U.S. 781, 785 (1989). Quoting
from Albertini, the Court affirmed that a speech regulation
must be:

3

Albertini’s recitation of the O’Brien standard is confusing and
probably oxymoronic. But even Albertini’s word jumble is a poor fit in
Mai’s case, where the regulation is neither incidental, nor neutral, nor
“no greater than is essential.”

Appendix - 084

MAI V. UNITED STATES

43

narrowly tailored to serve the government’s
legitimate, content-neutral interests but that it
need not be the least restrictive or least
intrusive means of doing so. Rather, the
requirement of narrow tailoring is satisfied so
long as the ... regulation promotes a
substantial government interest that would be
achieved less effectively absent the
regulation.
Id. at 798–99 (internal quotation marks omitted). Ward
further clarified that the speech regulation may not “burden
substantially more speech than is necessary to further the
government’s legitimate interests.” Id. at 799 (emphasis
added) (“Government may not regulate expression in such a
manner that a substantial portion of the burden on speech
does not serve to advance its goals.”). Yet while Ward
explicitly described the regulation as a content-neutral,
incidental burden on speech, id. at 791–92, it curiously
omitted the word “neutral” from its Albertini quotation.
Compare id. at 799 (“so long as the … regulation”) with
Albertini, 472 U.S. at 689 (“so long as the neutral
regulation”). As a result, later cases citing Ward likewise
fail to note that the test was crafted to analyze neutral,
incidental burdens on speech.
We cited the Ward language in Colacurcio v. City of
Kent to uphold a content-neutral, narrowly tailored
regulation of nude dancing performances. 163 F.3d 545, 553
(9th Cir. 1998) (upholding ordinance requiring nude dancers
to perform at least ten feet away from patrons for health and
safety reasons). Colacurcio notably reaffirmed that a
regulation evaluated under this test may not burden
substantially more speech than necessary to further the
government’s interests. Id.
Appendix - 085

44

MAI V. UNITED STATES

B. The Ninth Circuit Leans into the Watered-Down
Standard.
But things went sideways when we jumped from the
First to the Second Amendment. In Fyock v. Sunnyvale, 779
F.3d 991 (9th Cir. 2015), for the first time, we applied a subAlbertini standard (lacking explicit neutrality, incidental
burden, and not substantially more burdensome than
necessary language) to a regulation that squarely and
severely burdened the fundamental right to keep and bear
arms. Id. at 1000. The Fyock plaintiffs challenged a
regulation restricting possession of higher-capacity
magazines under the Second Amendment. Id. at 994–95.
The court upheld the restriction, holding that “[the
government] was required to show only that [the regulation]
promotes a ‘substantial government interest that would be
achieved less effectively absent the regulation.’” Id. at 1000
(quoting Colacurcio, 163 F.3d at 553)) (emphasis added).
And there it is. Quietly and fatally, we watered down a First
Amendment “reasonable fit” requirement (of dubious value
to the Second) to a Second Amendment test the government
could drive a truck through.
Our cases have subsequently cited and applied Fyock’s
(un)reasonable fit requirement. 4 But this isn’t heightened
scrutiny at all. Originally developed to analyze neutral
regulations that incidentally burdened First Amendment
See, e.g., Torres, 911 F.3d at 1263; United States v. Singh, 924
F.3d 1030, 1057–58 (9th Cir. 2019), cert. granted, judgment vacated sub
nom. Azano Matsura v. United States, 140 S. Ct. 991 (2020), and cert.
denied, 140 S. Ct. 1265 (2020); Pena v. Lindley, 898 F.3d 969, 979 (9th
Cir. 2018); Mahoney v. Sessions, 871 F.3d 873, 882–83 (9th Cir. 2017);
Bauer v. Becerra, 858 F.3d 1216, 1226–27 (9th Cir. 2017); Silvester v.
Harris, 843 F.3d 816, 829 (9th Cir. 2016).
4

Appendix - 086

MAI V. UNITED STATES

45

rights in a way that was no greater than was essential, this
test would have been a poor fit for direct restrictions on
Second Amendment rights (i.e., 18 U.S.C. § 922(g)(4)) even
if we hadn’t plied it with diazepam.
C. The Panel Doubles Down on “Relaxed” Heightened
Scrutiny.
Mai quotes Torres, which quoted Fyock, and that’s how
we arrived at our present predicament. Mai, 952 F.3d at
1116 (quoting Torres, 911 F.3d at 1263 (upholding
prohibition on illegal aliens possessing firearms)). In our
Second Amendment cases, therefore, a reasonable fit under
intermediate scrutiny demands only that the regulation
“simply needs to ‘promote[] a substantial government
interest that would be achieved less effectively absent the
regulation.’” Torres, 911 F.3d at 1263 (quoting Fyock, 779
F.3d at 1000) (quotation marks omitted); Mai, 952 F.3d at
1116. The result? The end of any regulatory tailoring and
the advent of limitless regulatory overbreadth.
There was a glimmer of good sense in Young v. Hawaii,
where a panel of our court held that the Second Amendment
“encompasses the right of a responsible law-abiding citizen
to carry a firearm openly for self-defense outside of the
home.” 896 F.3d 1044, 1048 (9th Cir. 2018), reh’g en banc
granted, 915 F.3d 681 (9th Cir. 2019). That panel astutely
recognized and avoided the same problem we see in Mai—
that the reasonable fit standard was significantly weaker than
it ought to be:
According to the dissent, the only question a
court must answer under intermediate
scrutiny is whether the government action
promotes a substantial government interest
that would be achieved less effectively absent
Appendix - 087

46

MAI V. UNITED STATES
the regulation. That is incomplete, because a
court must also determine whether the
government action burdens substantially
more protected conduct than is necessary to
further that interest.
Thus, while
intermediate scrutiny surely does not require
the government to pursue the least restrictive
means of achieving an important interest, the
substantial overbreadth or impreciseness of a
government action must be considered.

Id. 1072–73 (cleaned up; internal citations omitted) (quoting
Turner Broad. Sys., Inc. v. F.C.C., 520 U.S. 180, 213–14,
(1997)). Refreshing indeed—an insistence that overbreadth
be a salient consideration in the reasonable fit analysis! But
our en banc court reasserted our errant orthodoxy and
vacated Young. Young v. Hawaii, 915 F.3d 681, 682 (9th
Cir. 2019).
In Mai’s as-applied challenge, § 922(g)(4) clearly
burdens substantially more protected conduct than is
necessary to advance Congress’s interests (disarming “the
mentally ill”). The statute’s permanent, total burden on
Mai’s Second Amendment right is far more restrictive than
necessary to further the government’s interest in preventing
gun violence. Yet the panel and the precedent it cites simply
omit that additional prong of the test.
Instead, the panel applied our court’s adulterated and
incomplete version of the “reasonable fit” standard—a
standard that in its current form (with our downward
modifications) is unfit to size up even neutral regulations
that incidentally burden free speech rights. But basic logic
(constitutional and otherwise) tells us that we should demand
a closer regulatory fit for a law that directly burdens a

Appendix - 088

MAI V. UNITED STATES

47

fundamental right than that which imposes neutral,
incidental burdens on a fundamental right. If the panel had
undertaken real heightened scrutiny, or even just faithfully
applied the test as articulated in O’Brien, Albertini, Ward, or
Colacurcio, § 922(g)(4) could not have withstood Mai’s
challenge.
It’s time to face reality: the requirement we applied in
Fyock, Torres, and Mai is no requirement at all.
Government burdens on the Second Amendment may not
always need to fit into skinny jeans, but they should never
come dressed in clown pants. The current “reasonable fit”
standard makes it embarrassingly easy for the government to
sustain its regulations. Heightened scrutiny should have
some, well, height. Our en banc court spurned a golden
opportunity to reaffirm that intermediate scrutiny is, indeed,
a form of heightened scrutiny.
D. This Circuit Treats the Second Amendment Like a
Second-Class Constitutional Right. 5
To the rational observer, it is apparent that our court just
doesn’t like the Second Amendment very much. We always
uphold restrictions on the Second Amendment right to keep
and bear arms. 6 Show me a burden—any burden—on
5

See Peruta v. Cty. of San Diego, 824 F.3d 919, 945 (9th Cir. 2016)
(en banc) (Callahan, J., dissenting) (“The Second Amendment is not a
‘second-class’ constitutional guarantee.” (citing McDonald v. City of
Chicago, 561 U.S. 742, 780 (2010))).
6
See, e.g., Torres, 911 F.3d at 1264–65 (upholding ban on illegal
aliens possessing firearms); Pena, 898 F.3d at 973 (upholding ban on
purchasing particular firearms); Mahoney, 871 F.3d at 883 (upholding
limitations on police officers using department-issued firearms); Bauer,
858 F.3d at 1227 (upholding use of firearm sales fees to fund

Appendix - 089

48

MAI V. UNITED STATES

Second Amendment rights, and this court will find a way to
uphold it. Even when our panels have struck down laws that
violate the Second Amendment, our court rushes in en banc
to reverse course. See, e.g., Teixeira v. County of Alameda,
873 F.3d 670, 690 (9th Cir. 2017) (en banc) (reversing
panel’s invalidation of a regulation prohibiting the right to
purchase and sell firearms); Peruta v. County of San Diego,
824 F.3d 919, 942 (9th Cir. 2016) (en banc) (reversing
panel’s invalidation of city law requiring showing of special
self-defense need to obtain conceal carry permit where open
carry was also prohibited); Young v. Hawaii, 896 F.3d 1044,
1074 (9th Cir. 2018) (discussed above), reh’g en banc
granted, 915 F.3d 681 (9th Cir. 2019). 7 Other rights don’t

enforcement efforts against illegal firearm purchasers); Silvester, 843
F.3d at 829 (upholding 10-day waiting period for purchasers who have
already cleared a background check in less than 10 days); Fyock, 779
F.3d at 1001 (upholding city’s ban on high-capacity magazines); Jackson
v. City & County of San Francisco, 746 F.3d 953, 970 (9th Cir. 2014)
(upholding city’s firearm and ammunition regulations); Chovan, 735
F.3d at 1142 (upholding ban on domestic violence misdemeanants
owning firearms despite not committing domestic violence for 15 years);
United States v. Vongxay, 594 F.3d 1111, 1118 (9th Cir. 2010)
(upholding ban on felons possessing firearms).
7

Very recently, a panel of our court struck down another California
regulation as violating the Second Amendment. See Duncan v. Becerra,
No. 19-55376, 2020 WL 4730668, at *2 (9th Cir. Aug. 14, 2020). Given
our court’s history recounted above, court observers are of course
already forecasting an inevitable en banc reversal. See, e.g., Don
Thompson, 9th Circuit ends California ban on high-capacity magazines,
WASH. POST (Aug. 14, 2020) (“We expect an en banc panel will rehear
the case and correct this … out-of-step decision.”) (source omitted),
https://www.washingtonpost.com/national/9th-circuit-ends-californiaban-on-high-capacity-magazines/2020/08/14/f77751cc-de52-11ea-b4f125b762cdbbf4_story.html.

Appendix - 090

MAI V. UNITED STATES

49

receive such harsh treatment. 8 There exists on our court a
clear bias—a real prejudice—against the Second
Amendment and those appealing to it. That’s wrong. Equal
justice should mean equal justice.
III. CONCLUSION
The panel’s bootstrapping, class-based approach to
defining those at the “core” of the Second Amendment is
unjust and antithetical to controlling case law. Here, our
court’s unacknowledged antipathy toward the Second
Amendment forced the panel into the unenviable position of
condoning the perverse result of “once mentally ill, always
so,” notwithstanding its authentic disapproval of that
obviously immoral canard.
Our toothless “heightened” scrutiny of Second
Amendment restrictions is broken, and not accidentally so.
8

See e.g., Nat’l Inst. of Family & Life Advocs. v. Harris, 839 F.3d
823, 845 (9th Cir. 2016) (holding law requiring anti-abortion pregnancy
centers to provide notice of publicly funded family-planning services,
including abortions, did not violate First Amendment), rev’d and
remanded sub nom. Nat’l Inst. of Family & Life Advocs. v. Becerra, 138
S. Ct. 2361 (2018); Italian Colors Rest. v. Becerra, 878 F.3d 1165, 1179
(9th Cir. 2018) (holding California statute prohibiting retailers from
imposing surcharge on payments by credit card violated First
Amendment); Latta v. Otter, 771 F.3d 456, 476 (9th Cir. 2014) (holding
states’ anti-gay marriage laws violated Equal Protection Clause and due
process); deLaurier v. San Diego Unified Sch. Dist., 588 F.2d 674, 684
(9th Cir. 1978) (holding school district’s mandatory maternity leave
policy did not violate Equal Protection Clause); Valley Broad. Co. v.
United States, 107 F.3d 1328, 1336 (9th Cir. 1997) (holding federal ban
prohibiting broadcast advertisements of casino gambling violated First
Amendment); Monterey Mech. Co. v. Wilson, 125 F.3d 702, 715 (9th
Cir. 1997) (holding “state program setting goals for ethnic and sex
characteristics of construction subcontractors” violated Equal Protection
Clause).

Appendix - 091

50

MAI V. UNITED STATES

But Second Amendment rights are fundamental, and
litigants attempting to vindicate theirs deserve better than
what we’re currently offering, for “[t]he very enumeration
of the right takes out of the hands of government—even the
Third Branch of Government—the power to decide on a
case-by-case basis whether the right is really worth insisting
upon.” Heller, 554 U.S. at 634.
I respectfully dissent.

Appendix - 092

